<html>
<title> - NATIONAL INDUSTRIAL SECURITY PROGRAM: ADDRESSING THE IMPLICATIONS OF GLOBALIZATION AND FOREIGN OWNERSHIP FOR THE DEFENSE INDUSTRIAL BASE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-148]
 
 NATIONAL INDUSTRIAL SECURITY PROGRAM: ADDRESSING THE IMPLICATIONS OF 
  GLOBALIZATION AND FOREIGN OWNERSHIP FOR THE DEFENSE INDUSTRIAL BASE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 16, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
45-132                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, April 16, 2008, National Industrial Security Program: 
  Addressing the Implications of Globalization and Foreign 
  Ownership for the Defense Industrial Base......................     1

Appendix:

Wednesday, April 16, 2008........................................    39
                              ----------                              

                       WEDNESDAY, APRIL 16, 2008
 NATIONAL INDUSTRIAL SECURITY PROGRAM: ADDRESSING THE IMPLICATIONS OF 
  GLOBALIZATION AND FOREIGN OWNERSHIP FOR THE DEFENSE INDUSTRIAL BASE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Barr, Ann Calvaresi, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    11
Schneider, Dr. William, Jr., Chairman, Defense Science Board.....     9
Sullivan, Troy, Acting Deputy Under Secretary of Defense for 
  Counterintelligence and Security...............................     5
Watson, Kathleen, Director, Defense Security Service.............     7

                                APPENDIX

Prepared Statements:

    Barr, Ann Calvaresi..........................................    60
    Schneider, Dr. William, Jr...................................    51
    Sullivan, Troy, joint with Kathleen Watson...................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    77
    Mrs. Boyda...................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................    82
    Mr. Saxton...................................................    81
 NATIONAL INDUSTRIAL SECURITY PROGRAM: ADDRESSING THE IMPLICATIONS OF 
  GLOBALIZATION AND FOREIGN OWNERSHIP FOR THE DEFENSE INDUSTRIAL BASE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 16, 2008.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we welcome you to 
today's hearing on the ``National Industrial Security Program: 
Addressing the Implications of Globalization and Foreign 
Ownership for the Defense Industrial Base.''
    I am pleased that we are able to focus on this all-
important topic. And, too often, the pace of events and the 
demands of the war consume us so much that we have a hard time 
stepping back and looking at the defense industrial base and 
how, over the years, it is changing.
    Today's hearing does just that, by exploring how the 
Department of Defense (DOD) works to protect the classified 
information in the hands of the private-sector companies who 
develop and build and maintain defense systems. These companies 
are home to the vast majority of our classified information. 
The National Industrial Security Program is the primary means 
for ensuring that this information is truly protected.
    It has long been this Nation's official policy to be open 
to the rest of the world. We open our markets to goods from all 
countries. We are open to foreign investment. And closer to 
home for this committee, we have sought to be interoperable 
with the North Atlantic Treaty Organization (NATO) allies, 
sharing standards, technology, information on both our tactics 
as well as our procedures.
    We provide exceptions to various domestic source 
restrictions for companies located in NATO allies. The story 
for our defense industry is no different. We have allowed 
foreign investment in our defense industry and developed 
mechanisms like government security committees on corporate 
boards to ensure the national security is protected.
    All of these policy choices are predicated on two 
fundamental assumptions: that, in working more closely 
together, we are all made stronger and that reasonable measures 
can be taken to protect that which must be protected while 
remaining open to most things.
    Today we examine in greater depth what reasonable measures 
need to be taken to protect American national security. 
Industry is changing as the economy globalizes. How rapidly are 
issues of foreign ownership, control, influence impacting the 
defense industry? Will new investment vehicles like hedge funds 
and sovereign wealth funds require us to change how we 
determine what constitutes foreign ownership? How can the 
National Industrial Security Program keep up with the scope and 
pace of these changes? Is the Defense Security Service staffed, 
is it trained, is it equipped well enough to implement the 
policy?
    Here today to help us answer these questions is a very 
distinguished group: Troy Sullivan, Deputy Under Secretary for 
Defense for Counterintelligence and Security; Kathleen Watson, 
Director of the Defense Security Service; Dr. Bill Schneider, 
Chairman of the Defense Science Board; Ann Calvaresi Barr, 
Director of Acquisition and Sourcing Management at the U.S. 
Government Accountability Office (GAO); and also at the table 
is Mr. Greg Torres of the Department of Defense, who is here to 
answer questions.
    We welcome you. And before we ask you for your testimony, 
let me turn to my friend, my colleague from California, Duncan 
Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you for holding this very 
important hearing.
    And I think this is an issue that has received little 
congressional attention but addresses a subject that goes to 
the heart of an issue that this committee cares very deeply 
about. In the era of globalization, where international firms 
regularly compete for U.S. Government contracts, the subject of 
how the Department of Defense manages the risks associated with 
foreign ownership, control or influence is of paramount 
importance, particularly in classified contracts.
    This challenge confronts the Department on two fronts. 
First, consolidation within the defense industry and a weakened 
U.S. dollar has resulted in an increase of foreign interests 
acquiring U.S. companies that generate and support what I call 
militarily critical technology. Second, U.S. defense 
contractors increasingly rely upon foreign-owned subcontractors 
to support their contracts and almost always utilize hardware 
and software that is produced or manufactured overseas.
    My overarching concern and issue that I would like this 
hearing to address today is how we ensure that these trends and 
developments do not lead to the deterioration of our 
qualitative edge over potential adversaries.
    This is not an irrational fear or veiled protectionism. 
This is a real national security concern. We are in a period 
where industrial espionage is on the rise and where cyber 
attacks on U.S. Government networks are the rule, not the 
exception. Dr. Schneider's testimony aptly captures this issue 
when he argues that the success the defense industry has 
enjoyed in exploiting modern technology must be, and I quote, 
``tempered with recognition of the risks and vulnerabilities 
created by using these cutting-edge systems.''
    As we manage these risks and vulnerabilities, our initial 
focus should prioritize the most sensitive national security 
information and programs: classified contracts. Currently there 
are over 8,000 companies cleared to conduct classified work for 
the Department of Defense. They are all governed by the 
National Industrial Security Program, or NISP, a program which 
essentially imposes a set of requirements upon a contractor in 
exchange for a facility security clearance that allows a 
contractor's facility to access and hold classified 
information.
    The most important feature of the NISP is that contractors 
are obligated to comply. Unlike the Committee on Foreign 
Investment in the United States, or CFIUS, the NISP framework 
is mandatory in nature. All Department contractors holding a 
facility security clearance are obtained to ensure that 
classified information is handled in accordance with the NISP.
    This raises two primary concerns. The first is a policy 
question: How do we know that the policies of the NISP 
adequately manage the risks and vulnerabilities generated by 
the ever-evolving defense industrial base? My sense is that 
between the concerns raised in Defense Science Board reports 
and industrial espionage developments raised by the Department, 
we face challenges that our current policy is not tailored to 
address.
    A second area of concern is whether the policy presently in 
place is being implemented properly. In other words, does the 
pool of 8,000 contractors cleared to conduct classified work 
for the Department vigilantly follow the requirements in the 
National Industrial Security Program? Both the GAO report and 
my own impression are that the culture of compliance varies 
widely among the population of cleared contractor companies.
    I emphasize compliance because the NISP rests on a paradigm 
that depends upon the self-reporting of cleared contractor 
companies and their commitment to adopting business and 
management practices that do not result in the compromise of 
classified information or adversely affect the performance of 
classified contracts. In the current climate of industrial 
espionage and cyber attacks that I have described, we need to 
ensure that best practices are applied across the board, and 
vigilant compliance is the only acceptable standard.
    One practice that incentivizes contractors to vigilantly 
comply with the NISP is making a corporation's board of 
directors serve as fiduciaries for the corporation's 
fulfillment of NISP obligations. This practice ensures that the 
most senior corporate officers are attentive to the company's 
adherence to the NISP. In other words, making the corporation's 
directors apply the same rigor to NISP compliance as they do 
with complying with the tax code is a proven way to affect 
corporate behavior. If these schemes work to ensure that 
corporations do not run afoul of the U.S. Tax Code, they should 
probably be adopted in an arena of at least equal importance: 
national security.
    Cleared contractor corporations clearly create this culture 
of compliance on their own. These companies need the support 
and guidance of the Department. It is not reasonable to have a 
policy of, ``If you see something, say something,'' if our 
government is not educating these companies on what exactly 
they should be looking for. My understanding is that the 
Defense Security Service, the DSS, has struggled in recent 
years in this regard, and I am curious to hear from DSS on the 
steps that they are taking to ensure that industry has a 
partner in government that aids and supports industry as they 
carry out their NISP obligations.
    And, finally, Mr. Chairman, I would like to take this 
committee back to a hearing we held in this room March 2, 2006. 
On that day over two years ago, we examined the national 
security implication of the Dubai Ports World deal to take over 
port terminal operations in six U.S. cities and the ensuing 
CFIUS review. At the heart of that high-profile crisis were 
issues that we are talking about today. How does the U.S. 
Government manage the national security risks related to 
foreign ownership, control and influence, or FOCI?
    In my view, that case was an easier problem to solve than 
the one before us today, because with Dubai Ports we knew that 
a foreign entity was making an acquisition. That is not always 
the case. The tougher problems are the types of cases the NISP 
is tasked to manage where the FOCI is more subtle and less 
conspicuous. This is truly a complicated and difficult task 
and, in my view, requires no less attention by the Congress 
than what was given to Dubai Ports in the subsequent CFIUS 
legislation.
    So I want to thank you, Mr. Chairman, for holding this 
hearing. I want to thank our witnesses.
    And last, Mr. Chairman, Business Week this week has on its 
front cover, ``E-spionage,'' a Business Week investigation 
entitled, ``The U.S. military created the Internet. Now the Web 
may be turning against its maker.'' ``As America fights to 
protect itself, we uncover startling new instances of cyber 
spies targeting the government, and traced a path of a 
pernicious attack aimed at a defense consultant.''
    The fact that this is in the news, and, Mr. Chairman, we 
have seen a number of other cases, industrial espionage is now 
the order of the day and is receiving national attention. And 
if we are going to maintain this qualitative edge over 
potential adversaries for the next 5 to 10 to 20 years, we have 
to ensure that we are not accommodating their industrial bases 
with a less-than-adequate security arrangement for our own 
private contractors in this country.
    And with the wave of fresh money coming in and acquiring 
American defense interests and American defense contractors, it 
has become clear to me that there is only one entity which is 
truly responsible for making sure that our industrial base is 
secure, and that is us. And I hope that this hearing lays a 
base for this committee taking action that will ensure that we 
have, indeed, a secure technological system in the defense 
industrial base.
    So thanks a lot, Mr. Chairman, for holding this hearing.
    I thank our witnesses, and I look forward to your 
testimony.
    The Chairman. Thank you, Mr. Hunter.
    I first call on Troy Sullivan, the Deputy Under Secretary 
of Defense for Counterintelligence and Security.
    Mr. Sullivan, welcome.

 STATEMENT OF TROY SULLIVAN, ACTING DEPUTY UNDER SECRETARY OF 
          DEFENSE FOR COUNTERINTELLIGENCE AND SECURITY

    Mr. Sullivan. Thank you, sir.
    Good morning, Mr. Chairman, Ranking Member Hunter, members 
of the committee. I am Troy Sullivan, Acting Deputy Under 
Secretary of Defense for Counterintelligence and Security. I am 
pleased to be here today to talk to you about the Department of 
Defense's role in the Industrial Security Program.
    First I would like to introduce two key players on the 
Department of Defense team who are here today: Ms. Kathleen 
Watson, the Director of the Defense Security Service; Mr. Greg 
Torres, down at the end of the table, who is our Director of 
Security for the Department of Defense.
    Ms. Watson's organization administers the National 
Industrial Security Program on behalf of the Department and 23 
other federal agencies within the executive branch.
    Mr. Torres, among other things, is responsible for working 
with Ms. Watson and others to develop security policy. His 
office writes and staffs the National Industrial Security 
Program Operating Manual.
    They work closely with the Director of the Information 
Security Oversight Office and its staff, who are responsible 
for implementing and monitoring the National Industrial 
Security Program.
    The National Industrial Security Program was created to 
protect classified information in industry. The Department of 
Defense has a unique partnership with industry to produce the 
systems that provide our country with military advantages over 
current and future adversaries. We have a crucial interest in 
protecting classified information from compromise, and we take 
our role as the executive agent for the National Industrial 
Security Program very seriously.
    Globalization and foreign ownership have created a number 
of serious challenges to the protection of classified 
information as we process an increasing number of foreign 
ownership, control or influence actions in defense industry. 
Our policies must take into consideration this ever-changing 
dynamic.
    In addition to the challenges posed by globalization, the 
Defense Security Service workforce must be well-trained in 
these complex areas and be sufficiently sized to address 
situations in a timely manner. We are not yet where we want to 
be, but since the arrival of the new leadership in 2006 at the 
Defense Security Service and in the Security Directorate, we 
are moving forward smartly.
    For example, years of very intense work culminated in the 
publication of a new National Industrial Security Program 
Operating Manual in 2006. Based on experience to date with the 
new manual, we have identified several areas that, if clarified 
or strengthened, would improve the effectiveness of the Defense 
Security Service. These issues are being addressed by the 
Department with the goal of ensuring the Defense Security 
Service can accomplish its mission.
    The other key document, the Industrial Security Regulation, 
is 22 years old. Portions are out of date and in conflict with 
the newer National Industrial Security Program Operating 
Manual. To address these concerns, we drafted a revised version 
of the regulation that complements the newer manual. This draft 
will enter the coordination process later this month.
    The National Industrial Security Program is a cornerstone 
in the Department's efforts to protect classified research and 
technology from compromise, but it is not the only arrow in our 
quiver. Our first line of defense is a personnel security 
clearance program and the granting of security clearances to 
industry workers who require access to classified information.
    The Department is proud to be working with the Office of 
Management and Budget, Office of the Director of National 
Intelligence, and the Office of Personnel Management to develop 
a new and more effective and timely personnel security and 
investigative system. The transformation team working this 
project has a status report due to the President at the end of 
this month.
    While the National Industrial Security Program focuses on 
classified information, we must not forget the threats to and 
impact of the loss of unclassified information. The Department 
has an effort under way to help the defense industrial base 
better secure defense information on their unclassified 
networks.
    We also work with other federal criminal investigative and 
counterintelligence agencies on a wide range of defense and 
proactive programs to identify, neutralize and exploit the 
threats to our most critical technologies. We work closely with 
the Federal Bureau of Investigation (FBI) in its program to 
protect technology and industry, identified by DOD to the FBI 
as critical.
    Defense security and counterintelligence organizations, 
coupled with the Defense Security Service, provide a formidable 
capability to assist in protecting our most important research 
and technologies. But when the FBI joins us in a focused 
protection program, our capabilities are significantly 
enhanced.
    We must not overlook our partnership with industry. Its 
very dedicated and talented cadre of security officers is on 
the front lines of this battle.
    Finally, defense counterintelligence and security partner 
with the scientific, acquisition and defense industry 
communities to protect from compromise the critical information 
and technologies from the time the scientist has a ``eureka'' 
moment through the decommissioning or demilitarization of a 
system.
    I am sure you are aware of the 2005 GAO report that was 
critical of the Department's program that addresses security 
concerns with companies under foreign ownership, control or 
influence. Although the Department nonconcurred with almost all 
of the GAO recommendations, the current Defense Security 
Service Director recognized areas within that program that 
needed improvement, and she has incorporated the 
recommendations into her agency's transformation plan. She is 
also keeping the GAO informed of her progress.
    The dramatic changes in the Defense Security Service during 
the last two years, under the very aggressive and tireless 
leadership of Ms. Watson, have turned a broken organization 
into a more robust, fully funded and aggressive agency that is 
better suited to protect our Nation's secrets.
    My boss, the Under Secretary of Defense for Intelligence, 
Jim Clapper, asked me to relay his personal support for this 
important program.
    In conclusion, the Department works closely with industry 
in many ways to protect critical technology and infrastructure. 
The cornerstone of our efforts to protect our classified 
information and programs is the National Industrial Security 
Program. We take our community responsibility as the National 
Industrial Security Program executive agent very seriously.
    We understand that globalization and the active efforts of 
our friends and adversaries to acquire restricted technologies 
have not abated. With the ongoing revitalization and 
transformation of the Defense Security Service, we will be even 
better postured to accomplish this mission.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be happy to respond to any questions.
    [The joint prepared statement of Mr. Sullivan and Ms. 
Watson can be found in the Appendix on page 43.]
    The Chairman. Thank you very much, Mr. Sullivan.
    Kathleen Watson, who is the Director of the Defense 
Security Service.
    Ms. Watson.

   STATEMENT OF KATHLEEN WATSON, DIRECTOR, DEFENSE SECURITY 
                            SERVICE

    Ms. Watson. Good morning, Mr. Chairman, Ranking Member 
Hunter and members of the committee. I am pleased to appear 
before you today. I am Kathy Watson, Director of the Defense 
Security Service.
    As Mr. Sullivan indicated in his remarks, the Security 
Directorate of the Deputy Under Secretary of Defense for 
Counterintelligence and Security provides security policy for 
the Department of Defense, to include industrial security 
policy. The Defense Security Service implements those policies 
on behalf of the Department of Defense and 23 other federal 
agencies through the National Industrial Security Program. 
Through the National Industrial Security Program, the Defense 
Security Service provides security oversight of cleared 
companies to ensure they are properly protecting the classified 
information in their possession.
    When I arrived at the Defense Security Service two years 
ago, I found an agency that was underfunded and understaffed. I 
think everyone, including the members of this committee, know 
of our funding shortfalls in the personnel security area. What 
is perhaps less well-known but equally critical to national 
security is the National Industrial Security Program and the 
oversight role we play in regard to industry.
    I spent my first year at the Defense Security Service doing 
a top-to-bottom review. The result is a transformation plan 
that affects the entire agency. The plan was approved by the 
Department and includes an additional 145 full-time government 
positions for the agency. The majority of these positions are 
in the Industrial Security Program. I am also pleased to report 
that the Defense Security Service is fully funded in fiscal 
year 2008 and in the President's budget for fiscal year 2009.
    In addition to an increase in resources, the Defense 
Security Service initiated a number of internal changes in the 
Industrial Security Program. Most significantly, we developed a 
risk-based approach to our facility inspections. Of the more 
than 12,000 facilities we oversee, we identified approximately 
1,400 cleared facilities that we considered to be of special 
interest.
    In developing the special interest list, we considered risk 
factors, such as: poor security ratings in the past; security 
incidents resulting in loss or compromise of security 
information; facility size and complexity; performance on 
classified programs targeted by foreign entities; companies 
under foreign ownership, control or influence; and other risk 
factors, such as frequent turnover of facility senior managers 
and financial difficulties. We continue to define our risk 
criteria.
    This new approach allows our industrial security 
representatives to better prioritize our reviews, improve 
quality, and to conduct a more thorough inspection. The result 
is better security. As I said, all of our 300-plus companies 
under foreign ownership, control or influence now receive 
special attention. Our goal is to ensure that necessary 
countermeasures are in place by the closing date of the 
transaction.
    The Defense Security Service took to heart the 
recommendations of the 2005 GAO report and has incorporated 
them into its transformation plan. For instance, we are 
improving and increasing training for our personnel working 
foreign ownership, control or influence issues, and we are 
devoting 11 of our new full-time government positions to this 
area. Three of these positions will be at our headquarters, and 
eight new positions will be in the field. Both of these 
initiatives address the GAO's recommendation that the Defense 
Security Service formulate a human capital management strategy 
for our foreign ownership, control or influence personnel.
    The Defense Security Service is now contracting for an 
independent study of the effectiveness of the overall foreign 
ownership, control or influence process, to include a review of 
our internal business processes. This study will also evaluate 
whether we are gathering the proper information to effectively 
analyze and oversee these companies and we have fully 
integrated counterintelligence into the foreign ownership, 
control or influence analysis and oversight.
    Finally, the Defense Security Service has reviewed and 
plans to adopt the Department of Energy's automated foreign 
ownership, control or influence management application called 
e-FOCI. We completed a six-month test phase in March of 2008 
and plan to phase in additional users between now and 
fulfilling of the complete application in September of 2009.
    After some modification, the application will give us 
visibility of all such transactions in real-time, from 
inception to final mitigation. e-FOCI will also improve our 
capability to conduct analysis and improve our ability to 
identify trends. I believe these initiatives will help us meet 
the final two GAO recommendations for better data collection 
and a more systematic analysis.
    There is still much work to be done at the Defense Security 
Service. We still rely on antiquated information systems 
internally and face a serious hiring lag for new positions. But 
now that we have the appropriate resources, we can fully 
implement our transformation plan and strategically position 
the agency for the future.
    Mr. Chairman, this concludes my statement. I am available 
to answer any questions you may have. Thank you.
    [The joint prepared statement of Ms. Watson and Mr. 
Sullivan can be found in the Appendix on page 43.]
    The Chairman. I thank the gentlelady.
    A longtime friend of this committee, Dr. William Schneider, 
Chairman of the Defense Science Board, welcome again. Good to 
see you.

  STATEMENT OF DR. WILLIAM SCHNEIDER, JR., CHAIRMAN, DEFENSE 
                         SCIENCE BOARD

    Dr. Schneider. Thank you, Mr. Chairman. It is a great 
privilege to be here. I look forward to this opportunity to 
present my testimony.
    I have provided the committee with a detailed statement, 
and, with your permission, I would like to just give a brief 
oral summary of that statement.
    The Chairman. Without objection, each of the prepared 
statements will be put in the record. Thank you.
    Dr. Schneider. Thank you, Mr. Chairman.
    The impact of globalization on the Department of Defense 
and its mission has been an important aspect of Defense Science 
Board studies for more than a decade. The globalization of 
technology is no longer a choice for governments planning to 
modernize their military forces; it is a characteristic of the 
environment in which military capabilities will be developed 
and produced for the foreseeable future.
    Among the most pervasive factors responsible for the vast 
increase in international trade and investment since the end of 
the Cold War has been the deregulation of trade in advanced 
technology. The globalization of access to advanced technology 
has meant that users as well as producers of modern technology 
are able to share access to a common global technology base and 
markets. This nearly universal access to advanced technology 
has accelerated its propagation and has revolutionized the 
process of innovation in most technology-driven industrial and 
service industries, including the defense sector.
    Although legal and regulatory factors in the defense sector 
have slowed the impact of globalization on its research and 
development (R&D) and acquisition processes compared to the 
private sector, the DOD too has succumbed to its technical, 
commercial and industrial logic. By exploiting the technologies 
created or enhanced by the process of globalization, the 
military capabilities fielded by the Department of Defense have 
been swiftly transformed from its industrial-age character that 
dominated its capabilities at the end of the Cold War. The 
process of transforming of U.S. military capabilities to highly 
adaptive information-age capabilities appropriate to the 21st-
century threat environment is now at an advanced stage.
    The globalization process has provided important cost, 
schedule and performance benefits to the DOD and its industrial 
base. The underlying technologies which create the most 
decisive modern military capabilities are derived from 
developments in the civil technology sector. The highly 
competitive civil technology sector is thoroughly globalized. 
The pace of its development of technology is very rapid 
compared to the technologies developed solely within the 
defense sector and are usually associated with both declining 
costs and increasing capabilities.
    The DOD has been very successful in applying the benefits 
of globalization to many of its critical mission areas. For 
example, substantial improvements in counter-improvised 
explosive devices (IED) technologies and mine-resistant armor-
protected vehicles used in Iraq and Afghanistan are products of 
foreign developments brought to the United States through the 
CFIUS process and managed as foreign owned, controlled or 
influenced entities by the Defense Security Service.
    The success the defense industry has enjoyed in its 
exploitation of the globalization of modern technology must, as 
the ranking member noted, be tempered with the recognition of 
the risks and vulnerabilities created by this evolution in the 
manner in which military capabilities are created.
    Protecting America's military edge depends in part on the 
effectiveness of the National Industrial Security Program. The 
fact that an increasing fraction of the underlying technologies 
that are drawn upon by the defense industrial sector to create 
advanced military capabilities developed in the civil sector--
and, in many cases, are developed abroad--changes the 
environment in which the Industrial Security Program must 
operate.
    This is so because the core military capabilities we create 
resides not in the technology itself, but in the manner in 
which these civil technologies are converted into military 
capabilities. The details of how these technologies are 
engineered into military systems, especially the software and 
algorithms used to render the hardware effective in its 
military applications, and the manner in which individual 
systems interact in a system of systems is at the heart of what 
the industrial base needs to protect from potential 
adversaries.
    In the 1990's, the DOD recognized that it was becoming 
increasingly dependent on the globalization of the technology 
base. To increase DOD's access to advanced technology, the DOD 
made some shrewd decisions in the 1990's that have been re-
enforced by subsequent decisions in recent years. The executive 
branch took two parallel paths toward improving access to 
advanced technology in the international market.
    First, the U.S. Government sought to reform the process by 
which the DOD could procure defense products from producers 
abroad. The executive branch sought to liberalize the defense 
trade process both during the Clinton and the current Bush 
Administrations. The key elements of the proposed process-
liberalization initiatives--the Clinton Administration's 
Defense Trade Security Initiative in 2000 and the Bush 
Administration's NSPD-19 defense trade process reform 
initiative in 2002--were both rejected by the Congress, 
although some of the reforms were subsequently incorporated in 
U.S. Government practice administratively.
    The other dimension of the reform process has been much 
more successful. In the early 1990's, the DOD liberalized the 
process pertaining to the regulation of foreign investment in 
the defense sector. The policy change encouraged foreign 
investment in the defense sector, but did so by the DOD's 
embracing of mitigation measures known as special security 
agreements, and some variants of those, which mitigates the 
risk that the presence of a foreign investor might pose to the 
security of U.S. classified and export-controlled technology in 
the possession of a cleared U.S. company. The mitigation 
process focused heavily on industrial security, as established 
in the National Industrial Security Program Operating Manual.
    The mitigation process I have described is one with which I 
have considerable personal experience. For more than 15 years, 
I have served as an outside director on the U.S. subsidiary of 
foreign-domiciled firms in the U.S. defense sector. My personal 
experience with this process is entirely satisfactory from the 
perspective of meeting the aims of the program. The security 
compliance with both classified and export-controlled 
information is of a very high order, reflecting the 
preoccupation with security of the U.S. managers of the 
subsidiaries. At the same time, the firms are adding value to 
the U.S. defense program by bringing investment and advanced 
technology to the defense market that expands and strengthens 
the industrial base resident in the United States.
    The threat posed to the security of information for both 
foreign firms present in the U.S. market as well as U.S. firms, 
including classified and export-controlled information, is 
evolving. As I have noted, much of the underlying technology 
that drives the creation of advanced military capabilities is 
unclassified, and this information resides on computer 
networks. These networks are now the focus of attacks by 
potential adversary states and nonstate entities.
    The President's Cyber Security Initiative addresses a very 
important gap in the ability of the industrial base to protect 
its proprietary, unclassified information. The industrial base, 
domestic- or foreign-owned, lacks the knowledge that only the 
U.S. Government possesses about how to protect their computer 
networks that are part of a larger, national information 
infrastructure from foreign computer network exploitation and 
attack.
    The area of cyber security appears to be the domain in 
which the technology security of the defense industrial base is 
most at risk for both domestic- and foreign-owned firms 
operating in the U.S.
    Mr. Chairman, I would be pleased to respond to any question 
you or members of the committee may have. Thank you very much.
    [The prepared statement of Dr. Schneider can be found in 
the Appendix on page 51.]
    The Chairman. Dr. Schneider, thank you for being with us.
    Ann Calvaresi Barr, welcome.

  STATEMENT OF ANN CALVARESI BARR, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Calvaresi Barr. Thank you.
    Mr. Chairman, members of the committee, thank you for 
inviting me here today to discuss GAO's work on the National 
Industrial Security Program and Defense Security Service's 
(DSS) oversight of it.
    As you know, our body of work on government mechanisms 
designed to protect critical technologies while advancing U.S. 
interests has revealed alarming gaps in our safety net for 
keeping certain defense-related knowledge out of the wrong 
hands. Systemic vulnerabilities, not only in industrial 
security but also with export controls, foreign military sales 
and foreign acquisitions, were so significant that GAO 
designated the effective protection of technologies critical to 
U.S. national security interests as a government-wide high-risk 
area in 2007.
    Today I will describe how improvements to DSS's Industrial 
Security Program could strengthen our protection of critical 
technologies. Let me start by briefly summarizing three key 
weaknesses we reported on in 2004 and 2005.
    First, DSS cannot determine how well facilities are 
protecting classified information because it lacked overall 
data on the quality of compliance, the types of violations and 
their frequency. Regarding contractors under foreign ownership, 
control or influence, DSS did not know the extent to which 
these contractors reported foreign involvement in a timely 
manner or had access to classified information before 
protective measures were put in place.
    Second, DSS did not properly identify possible compromises 
to classified information, as required in their operating 
manual. For roughly 75 percent of the 93 violations we 
reviewed, DSS either made no determination regarding compromise 
or made determinations that were ambiguous and not covered in 
the manual. As a result, affected agencies were not notified of 
violations and, therefore, could not take any action to 
mitigate damage that may have occurred. In cases where clear 
determinations were made, DSS often did not notify affected 
agencies in a timely manner. In one case, notification was 
delayed five months.
    Third, DSS field staff lack the guidance, training and 
tools necessary to effectively carry out their oversight 
responsibilities. Of particular concern is their lack of 
understanding about corporate structures, legal ownership and 
complex financial relationships. And this occurs when foreign 
entities are involved. This is knowledge that is basic to 
determining and mitigating risk and then effectively overseeing 
contractors' actions.
    Addressing these and other weaknesses we found would help 
mitigate the risk of classified information being compromised. 
For example, identifying patterns of violations based on 
factors such as the type of work conducted at the facilities, 
the facility's government customer and the facility's corporate 
affiliations would enable DSS to identify problems and target 
needed actions. Similarly, timely notification of potential 
compromises to classified information would allow affected 
agencies to take stock of the damage and promptly take needed 
action to further minimize loss.
    We made a number of operational recommendations aimed at 
better ensuring that classified information entrusted to 
contractors would not be compromised, many of which DOD did not 
initially concur with. We are pleased, very pleased, to hear, 
as Ms. Watson pointed out, that DSS is now working to 
strengthen its Industrial Security Program. Notably, and also 
as Ms. Watson pointed out, DSS implemented a strategy to better 
position its industrial security representatives, a strategy 
consistent with our recommendations to provide targeted 
training for identified skill gaps and explore options for 
improving headquarters' support of field operations.
    While we are certainly encouraged by DSS's initiative, 
other actions, as Ms. Watson also alluded to, are needed to 
fully address our recommendations.
    Mr. Chairman, I would like to thank you again for giving us 
the opportunity to be here today. As our designation of ``high-
risk'' indicates, the protection of critical technologies 
warrants a strategic re-examination of existing programs to 
identify needed changes and ensure the advancement of U.S. 
interests. I believe this hearing contributes to that strategic 
re-examination.
    This concludes my statement. I would be happy to answer any 
questions that you or other members of the committee have. 
Thank you.
    [The prepared statement of Ms. Calvaresi Barr can be found 
in the Appendix on page 60.]
    The Chairman. Thank you very much.
    I understand, Mr. Torres, you are here to answer questions. 
Am I correct?
    Mr. Torres. Yes, sir, that is correct.
    The Chairman. Thank you.
    I will just begin with two very quick questions to Ms. 
Watson, if I may.
    You stated that the Defense Security Service was 
underfunded and understaffed when you first arrived. That was 
two years ago. Is that correct?
    Ms. Watson. Yes, sir.
    The Chairman. Do you have enough staff today and are you 
fully funded today to do your job?
    Ms. Watson. I am fully funded to do my job. We had an 
increase in our budget in the last year of $80 million, which 
is substantial.
    We are not properly resourced yet in terms of personnel 
because of the hiring process in the Department. I have the 
government positions available. We are hiring at DSS across the 
board. Almost half of the new hires are going to the Industrial 
Security Program, both in headquarters and in the field.
    The Chairman. How short are you, as we speak, in staff?
    Ms. Watson. Well over 100.
    The Chairman. What is your total number of staff members?
    Ms. Watson. Total DSS is about 750, give or take a few 
positions.
    The Chairman. Good. Thank you very much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. And, again, thanks for 
holding this hearing.
    Let me go to a--I have here one of the certificates that 
are filled out with respect to the degree of foreign ownership. 
And I noted that the requirement to update the certificates has 
been changed, the reporting requirements have been changed to 
be updated only when there are, quote, ``material changes'' to 
the information previously reported.
    Are any of you folks up to speed on this certificate and 
the fact that it is now--that the update for the certificate of 
foreign ownership is now basically discretionary and it is only 
triggered when you, the company, feel that there is a, quote, 
``a material change'' in the ownership, which would seem to be 
very vague?
    Are you up to speed on that at all?
    Mr. Torres. Sir, I will take that question.
    The requirement was changed in the 2006 National Industrial 
Security Program Operating Manual (NISPOM) from a mandatory 
filing every five years, and that is no longer required. 
However, there is a requirement that any time a material change 
occurs, reporting is required. And a material change is defined 
as any change to the answers to the questions on the form.
    In addition to that, we----
    Mr. Hunter. Now, say it again. A material change is 
identified as what?
    Mr. Torres. Any change to any of the answers on the form. 
So if you changed an answer to the question from a ``no'' to a 
``yes,'' that now somebody has more than a five percent 
interest, you need to report that.
    We have received information that this information, what a 
material change is, may not be sufficiently understood, and we 
are working with the Defense Security Service on a process to 
make sure that that is clearly understood.
    But in addition to that requirement to report voluntarily, 
Defense Security Service, in their program of oversight, does 
ensure that those questions are asked and that is part of their 
inspection cycle. And Ms. Watson may have additional 
information on that.
    Ms. Watson. Mr. Torres is correct; we do routinely inspect 
these companies, usually at least once every 12 months.
    In addition to the formal inspections, we have a robust 
advice and guidance program at DSS, which takes much of the 
time of the industrial security representatives in the field. 
We have a robust relationship with our industry partners, with 
the facility security officers. So any time they have a 
question or are looking for guidance, they contact us as a 
matter of routine.
    So there is much more to the DSS oversight than a once-a-
year inspection.
    Mr. Hunter. Okay. Well, the reason I ask that question is, 
I mean, the term ``material'' is in the eyes of the beholder. 
And it seems to me, on something this important and in an area 
that requires clarity and requires accountability, that is 
generally tossing the ball to the contractor and letting them 
make a determination, which may or may not be a timely response 
to something that is very important.
    Now, with respect to the ownership of a company, you have 
all these new devices now that manifest property ownership--
hedge funds, for example. How do you tell if a hedge fund has 
now become part owner of this organization if you don't know 
who the investors in the hedge fund are?
    Ms. Watson. Well, you have pointed out how difficult our 
job is at DSS. I want to make a couple of comments about your 
question.
    In terms of the definition of ``material change,'' we agree 
with you that it needs to be clarified in order for us to 
perform our oversight function. We are issuing, in conjunction 
with the Security Directorate, an industrial security letter. 
That is a tool that we have to update policy as a matter of 
routine. And that will be going out in the near term.
    DSS, after implementing the new NISPOM for the last two 
years, has recommended that additional guidance be provided, 
because there is confusion in industry on that point.
    Mr. Hunter. Well, why don't we just go back to the time-
certain reporting requirement that you had, where it wasn't 
discretionary as to whether or not these companies report in?
    Ms. Watson. Well, it seems to me that that is one way to 
attack the problem, but with the fast-paced business world that 
we are living in, I don't know that an update every five years 
is going to give us the information we need.
    Mr. Hunter. Well, then make it shorter, but make it--you 
could have both cases. That is, if you have a material change--
and make sure that they know up front precisely what that 
means--that if there is any change in ownership, that it be 
reported. But then also have a time certain when they simply 
have to submit a new report.
    But of the 8,000 contractors that you folks are monitoring, 
how many DSS industrial security personnel do you have 
monitoring those 8,000 contractors?
    Ms. Watson. We have approximately--in the agency, about 
half of the workforce is dedicated to the Industrial Security 
Program. We have about 350 full-time equivalents (FTEs) in that 
program.
    Mr. Hunter. So you have about 175 people?
    Ms. Watson. No, no, 350 on the industrial security----
    Mr. Hunter. But you said about half of them--okay, about 
350 people monitoring the contracts?
    Ms. Watson. Yes.
    Mr. Hunter. Okay. And that is for about 8,000 contractors?
    Ms. Watson. And 12,000 facilities, yes.
    Mr. Hunter. Okay.
    Now, Ms. Calvaresi Barr--did I get that right?
    Ms. Calvaresi Barr. You did get that right. Thank you.
    Mr. Hunter. Okay. You said that the GAO's analysis here, 
you found that you had folks in DSS that didn't understand the 
complexity of these ownership vehicles. I think that is 
something that we are seeing across the financial world right 
now, is that things are packaged, repackaged, ownerships are 
less than transparent, you have these funds--I have talked to 
defense contractors, in an anecdotal sense, who have said, ``My 
gosh, we have this new entity come in, and we say, `Who are the 
owners coming to buy very sophisticated, very sensitive 
stuff?', `It is a fund.' Well, who owns the fund?''
    So my question is--and this goes back to whether there is a 
material change in ownership. If you have a hedge fund getting 
into basically an investment pool, getting into ownership of a 
sensitive defense contractor, how do we ascertain who the real 
owners are, who the owners in interest are of this particular 
entity?
    Ms. Calvaresi Barr. Representative Hunter, you raise a very 
good issue and one which not only the U.S. is concerned about 
but many other countries as well. Hedge funds, sovereign wealth 
funds--this is an issue of great complexity, and it is very 
often difficult to know where the money is coming from and who 
the rightful players are.
    I believe that this speaks to the work that we conducted at 
DSS on a couple of fronts. One was that many of the industrial 
security representatives that are out there trying to determine 
the extent to which there is foreign involvement, ownership and 
influence have difficulty navigating their way through these 
complex financial relationships, corporate structures.
    And it was for that very reason that we made a series of 
recommendations that indicated that there needed to be more 
training or guidance in terms of how to review contractors that 
are under foreign ownership. It is a difficult job. The 
industrial security representatives, many of them, spoke with 
us about the difficulties that they had, that they lacked the 
basic tools and the knowledge to really do their job well. And 
I think the examples that you bring up with hedge funds and 
sovereign wealth funds point to those difficulties.
    The other point that I would like to make was earlier about 
when a material change has occurred. Our work did point to the 
fact that very long periods had transpired before DSS was aware 
of any material changes. And that was one concern that we had 
regarding the timely notification when changes did occur.
    So those were some of our findings, and we made some 
recommendations to address both of those points.
    Mr. Hunter. Okay. And you made a statement about the 
shortcomings you saw in the security system. Then you stated 
that DSS has moved to address those shortcomings; you are 
pleased in some areas to see the progress.
    So I think the general question from the committee would be 
evaluating--that you saw a problem, that DSS is moving at least 
in the direction of solving the problem. How would you grade 
the--where would you put the present state of affairs, with 
respect to security? On a 1 to 10, where were they when you 
made your analysis?
    Ms. Calvaresi Barr. We----
    Mr. Hunter. And I know it is broad, but we are trying to 
get a bird's-eye view here.
    Ms. Calvaresi Barr. It is very broad. I can comment back on 
when we looked at it. I want to be fair here. We looked in 
2004, and we looked in 2005. So we are not current, given the 
changes that have occurred.
    But on a scale of 1 to 10, I think the fact that we made 8 
recommendations in one report, 8 recommendations in another, we 
felt that the program was woefully inadequate to identify when 
there were risks in place and the fact that they had measures 
to protect unwarranted access to classified information. I 
would certainly put it below average.
    Mr. Hunter. Okay. Now that they have undertaken some steps 
that you have talked about, have you evaluated where they are 
now, having taken those steps?
    Ms. Calvaresi Barr. We have not had an opportunity to go 
back and evaluate. As part of GAO's process, every year when we 
make recommendations, we go back and follow up to document the 
extent to which those recommendations have been implemented. We 
made a total of 16 recommendations in those 2 reports. We have 
currently closed two of those recommendations, but we are 
working closely with Ms. Watson to gather documentation to 
determine what impact they have had.
    And, again, these are steps in the right direction. The 
initiatives are good. But, as we all know, guidelines and 
initiatives are one thing. It comes when you really look at the 
implementation, what differences are really occurring once the 
new guidelines and implementation takes place. And we have not 
done that yet.
    Mr. Hunter. So you haven't. So that is a work in progress, 
so you can't tell where you would place them right now.
    Ms. Calvaresi Barr. I could not.
    Mr. Hunter. Would you agree that this is a critical area to 
national security and one in which Congress should be involved 
in oversight?
    Ms. Calvaresi Barr. Absolutely a critical area.
    And as I mentioned in the beginning, I wanted to put the 
Industrial Security Program in the context of the larger safety 
net of those programs that are there to protect what is 
critical to the U.S. Those include things like, as you 
mentioned, CFIUS, foreign military sales, anti-tamper, the 
export control process. Industrial security is just one 
component of that.
    But I think, as we talk about the rapidly growing trends in 
globalization and the foreign influence that we have, it is 
absolutely essential that each individual program within that 
safety net work effectively. And they all rely on each other 
working effectively.
    I would say, right now, the larger safety net of programs 
that we have in place to protect what is critical, that safety 
net looks like Swiss cheese. It needs to be addressed; it needs 
to be fixed.
    Mr. Hunter. Okay. Thank you.
    Mr. Chairman, I would just say to my colleagues, I think 
this is going to be one of the critical issues of the coming 
years, because there is a lot of cash money out there in the 
world now; there are a lot of cash-hungry American companies, 
including companies in the defense complex. And the potential 
for targeting sensitive security areas by these sovereign 
wealth funds and by nefarious participants in these hedge 
funds, that opportunity is very large right now and will be 
large for the coming years.
    And there is one entity that is responsible for making sure 
that we keep this security; that is us. And my urging to the 
committee is that we exercise strong oversight in this area, 
much more than we have done in the past.
    And I am reminded about the Huawei corporation, this 
Chinese corporation which was trying to buy 3Com in partnership 
with Bain Capital. 3Com does cybersecurity contracting for the 
Department of Defense. And the fact that Huawei is a Chinese 
corporation closely connected with the Chinese military--also 
happens to be the people that helped Saddam Hussein set up his 
air defense systems against Americans--and the fact that they 
came close, from the report that I got--we urged CFIUS not to 
support this, not to give the okay or the green light to this 
particular transaction--but they came close to making that 
acquisition with the compliance and participation of a so-
called responsible American investment fund, I think is 
illustrative of this challenge we are going to have over the 
next 5 to 10 years.
    We have people with lots of cash, and we have American 
companies desperate for cash, and that creates a very difficult 
situation. So I hope that the committee weighs in in this area.
    And I will have some other questions at the end. Thank you 
for letting me take so much time, Mr. Chairman.
    Mr. Ortiz [presiding]. Thank you. Let me say thank you so 
much for the work that you do. This is not an easy job that you 
have. It is a very sensitive area. Sometimes it is hard to 
understand.
    Like my good friend, Mr. Hunter, was stating, there are 
people all over the world, a lot of joint ventures going on, 
people going to different countries to join in the joint 
ventures; and sometimes in these joint ventures they might 
develop something that, unknown, later becomes a very sensitive 
equipment.
    So how do we get these people to apply or work with your 
office and to tell you that they have developed this sensitive 
equipment? How do you police that? Sometimes it might be 
ignorance of some people. And some people might be hungry for 
money, and they just want to develop that incentive. So at what 
point do you get some of these companies or joint ventures to 
come and report to you? Or do you go to them?
    Any one of you that can try to answer that.
    Ms. Watson. The role of DSS, sir, is right now confined to 
the classified arena. So DSS would only be involved if there 
was a classified contract.
    Mr. Ortiz. Okay. I know that your problem has been 
complicated. As I was looking at the statement by Ms. Calvaresi 
Barr, where you state here that DSS industrial security 
representatives face several challenges in carrying out the 
foreign ownership control responsibilities, largely due to 
complexities in cases because of the limited tools that you 
have, the research, insufficient foreign ownership control, 
training, staff turnover, and inconsistencies in implementing 
guidance on these foreign licenses.
    Now let's talk a little bit about staffing. Are you 
adequately staffed now?
    Ms. Watson. Not at this moment. I have available positions, 
and I am hiring. I believe we will be adequately staffed once 
we fill up all of our positions.
    Mr. Ortiz. How many staff members will you normally have 
when you are staffed adequately?
    Ms. Watson. We are authorized around 750 people now. That 
is an increase of about 150 from a year ago.
    Mr. Ortiz. Now when you talk about tools that you might not 
have, what are the tools that you will try to either obtain so 
that they can make your job easier for you or maybe we are not 
giving you enough money to buy those tools?
    Ms. Watson. In the past, we did not have enough money to 
buy the tools. We have right now an electronic database that we 
use. It does not provide us with the information we need to 
properly manage our workload or to perform analysis, so data 
retrieval is still a problem for us. We have analyzed that 
system. We are in the process of defining requirements to 
upgrade it so it will get us the information we need.
    In addition to that, we are adopting the electronic tool 
that the Department of Energy uses to manage their FOCI cases. 
I believe the Central Intelligence Agency (CIA) will be using 
the same system. So all the keys agencies that are involved in 
this process will be on the same electronic system, which will 
allow us to do, again, better data retrieval and provide us 
with the analytic tools that we are now lacking.
    In terms of training for our people, I do want to make a 
comment about that. We recognize how complex the FOCI world is. 
GAO is right to point out that our folks in the field were not 
properly trained. Training was one of the first things to go at 
DSS over five years ago.
    Because of the complex workload that we have, what we have 
done now is singled out a cadre of 12 people that are currently 
employed in DSS in the field, and we are in the process right 
now of giving them specialized training so that they understand 
business structures better and are better armed to perform the 
work. So that we will be funneling FOCI cases to those folks in 
the field. The more complex cases will still come to 
headquarters, where we have a very small core. Right now, we 
have five people, two of whom are leaving. We are in the 
process of beefing up the staff, but it is a challenge right 
now.
    When I came to this agency two years ago, it was broken 
across the board, and it took a year to figure out where the 
problems were and design a transformation plan. We just got our 
resources six months ago. This is an agency in transition. It 
will be an agency in transition for as long as I am there. We 
have a lot of work to do; and, in my view, we have just 
started.
    Mr. Ortiz. If you don't mind, we want to help you; and I 
think this is a very, very important subject we are talking 
about today. It is a very important issue. We talk about the 
world getting smaller because of new technology, coming closer 
and closer to each other. We want to help you.
    If you don't mind, if you can give a list to the chairman, 
we want to help you with the technology you need, the tools 
that you need, so that we can help you.
    Ms. Watson. Okay.
    Mr. Ortiz. We want to work with you.
    Let me compliment you on the great job that you do. It is 
not easy. I know it is very complicated. I don't want to take 
too much time because we have got a lot of members who would 
like to ask a lot of questions.
    Now to my good friend, Mr. Saxton.
    Mr. Saxton. Mr. Chairman, thank you.
    Let me just follow up on a couple of the chairman's points.
    First of all, Ms. Watson, let me add my thanks to you for 
what you are doing. I think all the members of the committee 
appreciate the job that you are doing, because this is such an 
important set of issues, and it is important and emerging, I 
guess.
    Ms. Watson. Yes.
    Mr. Saxton. The subject of globalization of the economy 
certainly has ramifications on this topic. In fact, it is 
driving what it is that we are concerned about here. 
International investment, international cross business 
tendencies, and the openness that the chairman talked about 
when he was opening this hearing all are issues that are 
helping to drive our concern and your concern as well. When I 
say ``your concern,'' I am talking about all of you who are 
here trying to help us understand this set of issues.
    Let me just ask this. In terms of our acquisition program, 
the total universe of issues that we need to be concerned about 
are not just those that are worked by the Defense Security 
Service. We also have to have concerns about--while you are 
concerned about classified programs, we also have to be 
concerned about nonclassified programs, don't we?
    Ms. Watson. Yes, sir.
    Mr. Saxton. So is there anybody watching the nonclassified 
programs?
    Mr. Torres. I will take a little bit of that question, if I 
could.
    Another responsibility within our office is to write policy 
for research technology protection. Particularly, that program 
is designed to help research and technology personnel in 
identifying what their critical information is, specifically, 
CUR, controlled unclassified information, so we can make sure 
the right protections are put in place for that classified 
information. That particular document for research technology 
protection is drafted and currently in coordination in the 
Department.
    But, to answer your larger question, I am not aware of 
anyone who has an affirmative role or mission over industry to 
actually look at those particular programs similar to the way 
Defense Security Service does for classified programs.
    Mr. Sullivan may have some additional information.
    Mr. Sullivan. There is one initiative going on being led by 
Mr. John Grimes, Assistant Secretary of Defense for Network 
Integration; and that is to take a look at unclassified 
computers in the defense industry. As we all know, the 
unclassified computers have been subjected to an awful lot of 
attacks by foreign governments, foreign countries, or at least 
coming from those directions.
    There is an extremely important program going on right now 
to work with industry to do a couple of things, and I can't 
discuss most of them in this forum. But I think it would be 
handy for either us to point your staff toward Mr. Grimes and 
his staff or us to give you a little background.
    Mr. Saxton. Outside of Mr. Grimes, there is no--yes, sir.
    Dr. Schneider. Mr. Saxton, if I could add a point on this. 
An important fraction of the unclassified information is 
export-controlled. Those technologies are managed under the 
International Traffic and Arms Regulations, which in turn is 
the responsibility of the Department of State. The mitigation 
plans required for foreign-owned, controlled or influenced 
companies, for example, in their special security agreements, 
include provisions relating to the protection of export control 
but unclassified information.
    The Department of State has conducted some inspections, I 
know, of foreign-owned, controlled, and influenced companies. I 
suspect that if the committee wanted further information on the 
management of the unclassified defense technology that is 
export controlled, it could be obtained from the Department of 
State.
    In parallel, the Department of Commerce has the Export 
Administration Regulations, which it is responsible for 
enforcing.
    Mr. Saxton. Ms. Calvaresi Barr, I know you want to say 
something, but let me just try to put a frame around what I 
think I am hearing.
    There are a variety of organizations, computers, Department 
of State, maybe some others, who have some fragmented 
responsibility of looking at Defense procurement as it relates 
to unclassified programs. But there is nothing like the Defense 
Security Service in the Department of Defense looking 
particularly at unclassified programs.
    Ms. Calvaresi Barr.
    Ms. Calvaresi Barr. I think it is correct that there are a 
myriad of programs and policies that are in place, some of 
which deal with unsensitive, unclassified information, 
equipment, know-how components. Export controls plays, as Dr. 
Schneider said, a very, very large part in that.
    What I wanted to mention is that GAO has conducted a body 
of work on the export control system and has found significant 
weaknesses and vulnerabilities in those systems as well. And I 
think I would take it back to where I started, that you have 
this larger safety net of programs with overlapping roles and 
responsibilities, and it is absolutely critical that each of 
those programs work hand in hand with one another and 
coordinate closely in our work, not only within the individual 
systems but looking at how well they were working in terms of 
sharing information and cooperation was not very good.
    Mr. Saxton. Thank you.
    My time has expired, Mr. Chairman. I thank you for having 
this hearing.
    I wanted to ask if you could describe--and perhaps some 
other members can pick up, because my time is over--but I 
wanted to ask you if you can describe exactly what an FOCI case 
is. I wanted to delve into this so-called self-reporting issue 
a little bit more. Because, obviously, we need help, Ms. 
Watson, and you need help in providing your role as a monitor 
on these so-called self-reporting--my word--self-reporting 
cases. Perhaps some other members will pick up on those issues.
    Thank you.
    Mr. Ortiz. Thank you.
    Mr. Snyder.
    Dr. Snyder. Dr. Schneider, I am over here. You can call me 
doctor, because I am a medical doctor.
    Earlier, Mr. Hunter was having a question with the other 
panelists about the hedge funds and the flow of money. Do you 
have any comments on that issue of investors?
    Dr. Schneider. Yes. There is, especially in the case of 
advanced technology industries, a great deal of interest on the 
part of passive investors, including hedge fund and investment 
in this sector. The responsibility, of course, for managing 
these investors largely falls to the Securities and Exchange 
Commission because of their responsibilities in that segment of 
the financial services sector. Publicly held companies, the 
ownership is changing hour by hour. It is an unusually 
complicated arrangement.
    This is why the Defense Security Service, in the 
implementation that I am familiar with, with foreign-owned, 
controlled, and influenced companies, that when an investor 
buys it there is a great deal of specific disclosure required 
to understand who is the ultimate owner of the company. But, in 
addition, there are other provisions in the mitigation measures 
to separate the foreign investor from the control technology. 
The details of that are contained in the agreement between the 
parent company and the Department of Defense that separates 
them from those matters.
    So the effectiveness of protecting the information from 
unauthorized disclosure, whatever the ownership situation is, 
is critical. That is those mitigation measures must be in place 
and must be effectively administered in order to maintain this 
barrier between the foreign investor and the information that 
is managed by American citizens who would be working in the 
subsidiary in the U.S.
    Dr. Snyder. Regardless of who is buying in and out of the 
hedge fund or in or out of the investor pool of money.
    Dr. Schneider. Correct.
    Dr. Snyder. Ms. Watson, I had a couple of questions I 
wanted to ask you.
    In the GAO statement, on page two, it talks about your 
files on contract or facilities security program and their 
security violations. It says, ``Further, the manner in which 
this information was maintained, geographically dispersed, 
paper-based files, did not lend itself to this type of 
analysis.'' Do you all have paper-based files?
    Ms. Watson. We did.
    Dr. Snyder. Why?
    Ms. Watson. The agency has been underresourced for 
approximately 20 years. We now have a database, the industrial 
securities facility database we use. It is not a system that I 
would call the system of the future. It is what we have now. It 
now houses the information that is collected in the field so 
that we have a more robust oversight and cross-fertilization 
within the agency.
    Again, that is a system we have just looked at, and we are 
making recommendations for upgrades and in the process of 
defining the requirements for the upgrade so that we have a 
better system.
    Dr. Snyder. Do you even know how many geographically based 
dispersed files are out there? I would think you would be 
talking thousands.
    Ms. Watson. In terms of files, exactly, no. We have 71 
field locations throughout the United States, and one of the 
responsibilities of the industrial security representatives who 
are doing this work is to input the data they collect from the 
companies into the database.
    Dr. Snyder. Would all those geographically dispersed files 
be at one of those 71 sites?
    Ms. Watson. They all have access to the entire database.
    Dr. Snyder. But the files would not still be at the 
companies. They would have been filed at one of your sites. Is 
that correct?
    Ms. Watson. Our files are not at the companies. They are at 
our sites and at our database, yes, sir.
    Dr. Snyder. You made reference to lack of resources in the 
past and your improvement in resources and you are still 
working up your staff as far as the security clearances. What 
is your current backlog in terms of how far behind are you in 
numbers and of time in terms of the security clearances?
    Ms. Watson. Are you talking personnel security clearances 
or facility clearances?
    Dr. Snyder. For the facilities.
    Ms. Watson. Facility, it generally takes us--I don't know 
the current backlog, but it takes approximately up to 180 days 
to get a facility clearance. The reasons for that are, one, we 
need to make sure that the company has a facility security 
officer. They have to have a facility security program.
    Dr. Snyder. But you don't know right now how many companies 
are waiting?
    Ms. Watson. No.
    Dr. Snyder. How much delay there is?
    Ms. Watson. No.
    Dr. Snyder. Thank you.
    Mr. Ortiz. Now we have our own scientist, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    With the globalization of technology and industry, we are 
increasingly challenged to maintain the premier military in the 
world. Essential to that, of course, is our ability to be able 
to tap into the enormous resources represented by our small 
business community.
    A bit more than half of all the employees in our country 
work for small businesses. Way more than half of all of the new 
innovations come from small business. I note that in the little 
summary given to us by staff it says that private industry or 
college or university must have a bona fide contract 
requirement that necessitates a facility to hold or store 
classified information before they can get a classified 
contract. But to get a classified contract, you have got to 
have a facility that is cleared. Not only that, you have to 
have employees that are cleared to do classified work.
    Now we have kind of solved the employee problem by having a 
mentor program where the employees of small business are 
temporarily moved to a large business which has a classified 
contract so that they then have a justification for asking for 
a security clearance for the individual.
    How do we work around this catch-22, that in order to get a 
security clearance for your facility you have got to have a 
contract that requires that, but, to get the contract, you have 
to have the clearance? How are we working around that?
    Ms. Watson. I would like to take that question for the 
record.
    Mr. Bartlett. You would like to take that question for the 
record.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Bartlett. On almost a daily basis I have 
representatives from small business coming through my office 
with exciting new technologies, and they are out there waving 
their hands. And here I am. I have got this great new 
technology, and nobody is noticing.
    You can't ask for what you don't know exists. When they 
have the additional hurdle of--many of these things are going 
to end up classified, because they really are cutting-edge 
technologies. They have the additional hurdle of not being able 
to get a classified contract because they don't have a facility 
which has clearance.
    So we have got to work around that somehow. How are we 
doing that?
    Ms. Watson. One way to work around it is if there is a 
government activity that is interested in contributing with 
that company on a classified basis, they can sponsor the 
company for a facility clearance.
    Mr. Bartlett. Do what?
    Ms. Watson. Sponsor the company for a facility clearance.
    Mr. Bartlett. Before they have the classified contract.
    Ms. Watson. Yes, sir.
    Mr. Bartlett. Somehow, Mr. Chairman, there has to be a 
shortcut to this. Because these small businesses have limited 
capital. They really can't hold on for a year or so while these 
things happen.
    And from my personal experience, I know that there is a 
great deal of technology out there in the small business world 
that we are having great difficulty accessing because of the 
bureaucratic hurdles. They are intimidated by all of the red 
tape in getting a contract. Then when they have the additional 
burden that they can't get the classified contract until they 
have a cleared facility, that they can't get the cleared 
facility until they have a classified contract----
    This requires a working relationship that is not easy to 
create. Where you have to have the government agency saying, 
gee, I would like this small business to work for me. 
Therefore, won't you give them a security clearance?
    I don't know the proper procedure for developing a work 
around this. I know we have to have classified facilities, 
cleared facilities. I know that. But, right now, we are having 
great difficulty getting access to a lot of really important 
technology in the small business world because of this 
difficulty.
    What are the recommendations and how do we get there?
    Ms. Calvaresi Barr. Representative Bartlett, I would like 
to make a comment based upon your question.
    We also raised sort of on our high-risk list the need for 
the Department of Defense to recognize what are the key 
technologies and what is critical to the U.S. in order to 
maintain military superiority. We have done some work looking 
at how well informed we are about knowing what is militarily 
critical, where do those technologies reside. Oftentimes, as 
you say, some of the more innovative technologies and research 
and development resides at some of the smaller companies that 
are more innovative.
    What we call for is that the Department of Defense sort of 
take stock of what is needed, what is critical, where does it 
reside, and then look at all of the programs and policies that 
we have in place that bring these needed technologies to the 
forefront and look to see what are the barriers, what are the 
challenges. This needs to be a constant relook and re-
examination. Because, as we know, businesses continue to grow. 
There is rapid advancements in technology. So it calls for that 
kind of continual oversight on behalf of industrial policy to 
recognize where we need to go and how well equipped those 
entities are to overcome some of the obstacles and barriers 
that you spoke about.
    Mr. Bartlett. Mr. Chairman, we have common cause with our 
Small Business Committee in desiring more access to the skills 
and resources of the small business community, and I would 
suggest it might be productive to collaborate with them in 
seeing how we can work around this, obviously, catch-22 kind of 
a problem that we have.
    Thank you very much. I yield back.
    Mr. Ortiz. Thank you.
    Mrs. Boyda.
    Mrs. Boyda. Thank you so much, Mr. Chairman, for calling 
this hearing.
    Thank you all for your service.
    I represent Kansas, so there is a little issue about a 
contract going to Airbus as opposed to Boeing. Knowing it is 
certainly a complicated issue, but clearly I get asked on a 
regular basis not about so much why are we outsourcing our 
jobs, it is why are we outsourcing our national security.
    What role do you all play or do you play any role when it 
comes to those contracts? Are you consulted on that? Do you 
weigh in on how well these people have done in the past or what 
their expectation is? What role do you play in the contracting 
process?
    Ms. Watson. I would say we play a minor role, but it is 
important. Any company that currently has a classified contract 
that is under the oversight of DSS gets a facility security 
rating every year after we do an inspection. We notify the 
government contracting activities of those ratings. So they are 
aware of how well we assess the company is postured to protect 
classified in their hands.
    Mrs. Boyda. Would you happen to know on the Airbus 
contract, what we have finally called the Boeing contract in 
Kansas, do you know if they already had a security clearance?
    Ms. Watson. I don't know.
    Mrs. Boyda. Could I just ask for the record just some 
background? Is it publicly available on what that was, what the 
standing was? Was it part of your contracting?
    Ms. Watson. Just for the record, DSS does not get involved 
in the contributing process itself.
    Mrs. Boyda. Okay. My follow-up question would be to you or 
to any of you on the panel. Because the issue of outsourcing 
our national security, clearly. This was about jobs. But it is 
not just about jobs. It is about outsourcing our national 
security. What would you have me tell the good people of Kansas 
when they ask me what are we doing to safeguard that national 
security?
    From what I have heard today, we have had our fair share of 
challenges in this area, and we are doing better. As you have 
said, we are going to be in transition for quite a while. What 
am I supposed to tell them about the security of our secrets 
and our classified information?
    Ms. Watson. I think we have the proper framework in place 
to provide the security that we need. Any company that has 
access to classified information needs a facility security 
clearance. In order to get that, their key management personnel 
need a personnel security clearance. Usually, that is the head 
of the company. The facility security officer needs a security 
clearance, and so does anyone in that company that has access 
to classified information. So that is the general framework.
    There is another comment I want to make about FOCI 
companies, to put this in perspective. FOCI companies come to 
us in two ways. One is a new company that is already under FOCI 
is seeking access to classified and needs a facility security 
clearance. So during the course of processing that company for 
the clearance, we understand what the foreign ownership control 
or influence is in it.
    There was a question earlier about hedge funds. We do not 
approve companies for access to classified unless we understand 
completely the ownership chain. So there is some transparency 
there.
    The second class of cases are companies that already have 
facilities security clearances that are then--there is a 
foreign interest that acquires part of the business or there is 
a control element that comes into play. That is when there 
would be a material change that they need to report to us.
    There have been lags in reporting. But, again, the 
facilities security officers, if they are doing their jobs--and 
we train them on how to do their jobs--report to us information 
like that on a routine basis.
    Mrs. Boyda. I am going to run out of time, but thank you.
    If you would again, for the record, give me some background 
about what the status of Airbus was, if they were already in 
the category and they already have some of the clearances, you 
have already done some of your inspections on that. I 
appreciate that.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mrs. Boyda. Again, it is very concerning to hear that we 
have left this very important process pretty unfunded and 
without what they need to get the job done. So it is a little 
concerning. Actually, it is very, very concerning. I appreciate 
the work that you are doing to clear it up.
    Thank you. I yield back.
    Mr. Ortiz. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Thank you all for being here.
    I start out with a statement in Dr. Schneider's testimony 
that says, ``Globalization of technology is no longer a choice. 
It is a characteristic of the environment.'' I am afraid that 
some people haven't quite realized that there is no going back. 
The question is, how are we going to deal with this environment 
that we are in? And that means we have got to sort out the good 
from the bad and avoid knee-jerk reactions, which I think we 
have seen in some past cases.
    In my mind, I kind of differentiate two sets of issues, 
one, what we are looking for, what are the standards; and the 
second one is the enforcement of those standards.
    Dr. Schneider, you were asked by Dr. Snyder a little bit 
earlier about the hedge funds and those kind of ownership 
standards. But I notice in your testimony you talk about the 
key thing we want to protect is the software algorithms that 
make the hardware effective and work. I think about how much 
software is off the shelf, comes from potentially other 
countries, software providers that may not be a part of the 
systems we are talking about here at all; and the concern I 
have is that we are not asking the right questions, that maybe 
we are not looking in all the places that we ought to look.
    It even reminds me of the debate we are having now about 
financial institution regulation, which has not kept up with 
the changes in global markets. Isn't that true for technology 
as well?
    Dr. Schneider. Yes, I think that is a generally accurate 
statement.
    The defense establishment, for example, depends on 
computers. Computers use microprocessors. The software for 
those is largely produced in a globalized environment. Indeed, 
the nature of the industry is such that very little of this 
element of the business is actually created in the defense 
sector.
    What the defense sector does is take that information and 
in a classified environment create these algorithms so that a 
microprocessor that you might buy from a north shore supplier 
is then put into a system in such a way that it performs a 
military task.
    What is vital to us is to be able to protect the knowledge 
about those algorithms. The fact that it uses a commercial 
microprocessor illustrates the fact that the underlying 
technology is not, per se, the sensitive part of it. It is 
though algorithms that really create the military capabilities 
that we need to protect.
    So I think what the Department of Defense has been trying 
to do is to get some of both worlds, have a very successful 
industrial security program that protects these algorithms in 
the example I gave, while being able to take advantage of the 
technical advances that exists in the globalized market.
    The Defense Science Board did two recent studies dealing 
with the problem you mentioned. One is, how do we produce 
mission-critical software in a secure environment? The other 
one was basically the same question with respect to 
microprocessors and hardware that is used in information 
systems. It is a very challenging problem to be able to deal 
with it and one that I think may interest this committee.
    Mr. Thornberry. Definitely.
    Ms. Watson, who sets the standards that you go enforce? It 
is not clear to me if, say, we want to have a different 
standard or look at different questions, who decides that?
    Ms. Watson. Right now, I would tell you that it is a policy 
matter and that DSS provides input into the policy.
    Mr. Thornberry. Who is the decider?
    Ms. Watson. The Security Directorate.
    Mr. Thornberry. That is?
    Ms. Watson. Mr. Torres at the end of the table.
    Mr. Thornberry. So it is up to Mr. Torres to say, yes, we 
are going to look for that because that matters or, no, we are 
not going to look for that.
    Mr. Torres. If I may interject here, the Security 
Directorate is responsible for publishing and staffing the 
policy with regard to two particular documents. One is the 
NISPOM. But the NISPOM, which is the overarching document that 
dictates what we are going to do from a security perspective, 
also has other signatories to it, including Energy, Nuclear 
Regulatory Commission (NRC) and CIA. So we cannot unilaterally 
decide what the standards will be on the NISPOM.
    On the Industrial Security Regulation, which is the old 
document that we are now getting ready to restaff, although we 
do coordinate that with all the interested parties, we have 
more say in that particular document and we work closely with 
Defense Security Service because their input--they are the ones 
on the front lines telling us what is working and what is not, 
and we depend heavily on them to tell us what needs to be 
changed, as well as working with the National Industrial 
Security Program Advisor Committee (NISPAC), which is also an 
oversight group for industry.
    Ms. Watson. May I comment on that as well?
    Mr. Ortiz. Go right ahead.
    Ms. Watson. One of the things I mentioned in my oral 
statement is we are contracting out of DSS for the FOCI 
process. We are going to have people look at the forms that are 
filled out to make sure we are asking the right questions. So 
we will feed that into the policy.
    But there is a gray area between the overarching policy and 
then how we implement it. We do have liberty at DSS in terms of 
how we are going to implement that policy. If we think there 
are things we need to look at in a company, we will look at 
them.
    Mr. Ortiz. Thank you, ma'am.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    First of all, Ms. Watson and the others, for the civilian 
employees over there in DOD, we often commend the military when 
they come up before us for their great service. And having 
served 31 years in the military and worked alongside a lot of 
civilians over there, given the resources, you are equally 
great. It really is a total force over there.
    My question is--and this may have been asked because I have 
been in and out, and I am sorry about that. There is a primary 
in Pennsylvania debate tonight, and I'm----
    Under the NISPOM, the FOCI chapter section of it--and if 
this has been asked, I apologize--there is an annual review, 
and an annual certification that is done. Who reads those? Who 
do they go to? How high up the chain of command? And do they or 
should they come to Congress?
    That last one was for excitement.
    Ms. Watson. We do review the companies annually. We provide 
a security rating to the company.
    Mr. Sestak. Who reads them above you?
    Ms. Watson. Well, any government contracting activity----
    Mr. Sestak. I mean within the Department of Defense, within 
the government. Does the Secretary of Defense get a brief on 
how well we are doing this?
    Ms. Watson. No.
    Mr. Sestak. Sometimes, at least, my thing is, expect what 
you inspect. Shouldn't we be passing these up further the 
chain?
    Ms. Watson. They are passed up the chain.
    Mr. Sestak. Who gets them? That is what I am trying to get 
to.
    Ms. Watson. I understand that. I am trying to answer this.
    Say if a company had a classified contract with the Army, 
the Army is the government contracting activity. We would 
provide our report and our findings to the Army. So it is their 
classified information at risk, not DSS's. So they understand 
what the security posture is of the company within their 
contract.
    Mr. Sestak. So it gets passed to somebody in the Army.
    Ms. Watson. Yes. If the company had 12 contracts with 12 
different entities, they would all get that.
    Mr. Sestak. My next question is, if it doesn't all come 
together, are you unable to tell us what the trend analysis is? 
In other words, what are the violations that are occurring that 
we are able, with this nice centralized data, being able to say 
that is a recurring problem. Do we do that?
    Ms. Watson. We are struggling with trends analysis, 
particularly in the FOCI world. We do have a 
counterintelligence element in the industrial security program. 
It is an integrated part of that program. They publish a 
document annually generally called Technology Trends. We have a 
classified and unclassified version.
    So the basis for that report is we educate the facility 
security officers and the folks in industry. We gave over 1,000 
briefings to industry last year.
    Mr. Sestak. I only have a few moments, because they always 
take away an extra minute from a freshman. I have one more 
question. I am going to ask you to answer this. The question I 
would like also, if there is time, are you able to tell in this 
trend analysis where technology is going?
    Ms. Watson. Yes.
    Mr. Sestak. Good. Those reports go to whom?
    Ms. Watson. That document is available in an unclassified 
and classified version. We do send it out to industry so that 
they understand what the threats are that they are dealing 
with.
    Mr. Sestak. Does it go above you?
    Ms. Watson. It is disseminated throughout the Department, 
yes, sir.
    Ms. Calvaresi Barr. Yes, I just wanted to comment that the 
questions that you asked are where we saw some key 
vulnerabilities. One is that the overall performance ratings at 
the facilities were not being fed up to DSS headquarters so 
that they could do the kind of trend analysis that you pointed 
to: numbers of security violations, by what corporate 
affiliation, for what kind of data, which government customers 
or agencies were affected.
    We raised this pretty significantly in the reports that GAO 
did so that you could do the trend analysis, target where there 
were problems, and put corrective actions in place.
    Mr. Sestak. Could you see there would be value if this 
report was required to go up further the chain of command or 
come to Congress or anything?
    Ms. Calvaresi Barr. Well, I think holding folks accountable 
for their role and their mission needs leadership, and you need 
leadership at the top. It needs to be a priority. So you need 
to have those that are concerned about it, looking at it, 
asking questions and putting the right things in place.
    To the extent that that is happening, I think we have great 
leadership here now at DSS. Kathy has done just an amazing job 
since GAO has looked at really trying to get her arms around 
this and address it. But I think the support going up the chain 
could be further advanced.
    Mr. Sestak. Mr. Chairman, really, the question sometimes, 
if it does go up the chain of command, it can actually get her 
support.
    Thank you very much.
    Mr. Ortiz. Thank you.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I appreciate that.
    We have had some discussions about ownership of companies. 
Have we had instances where the owner of a company breached the 
agreement, the classified agreement within the company, and 
took access to classified data that it shouldn't have? Has 
there been a problem with ownership in terms of violations?
    Okay. I actually have a copy of the last Technology Trends. 
The biggest trend is they simply ask for the information.
    Ms. Watson. Yes, sir.
    Mr. Conaway. How successful are they at asking and getting 
classified information by just asking?
    Ms. Watson. I think they are fairly successful, and it 
wouldn't just be classified information.
    Mr. Conaway. I think this is just for classified 
information. The most successful intelligence-gathering 
facility--about classified information is people just ask the 
folks who have it, and they give it to them?
    Ms. Watson. The reason we know that is because the 
companies are reporting that back.
    Mr. Conaway. Those are the attempts. How successful are 
those attempts at getting classified information? We know that, 
say, 50 percent of the attempts were just simply asking for it. 
The company said that looks like a probe of some sort, and they 
stopped it. Can we tell if they are successful one percent of 
the time at getting classified information?
    Ms. Watson. I can't give you a percentage. What I can tell 
you is when the companies report that information back to us, 
we don't just hold it at DSS. We disseminate it across the 
counterintelligence and law enforcement community. The number 
of suspicious contacts reports we are receiving in the last 
couple of years has exploded.
    Mr. Conaway. This is 2004 data. When will we get the new 
one?
    Ms. Watson. We are aiming for this fall. We have changed 
the methodology we use to prepare and coordinate that document. 
It will be coordinated within DSS and throughout the community.
    In terms of dissemination of the document, I do want to 
note that it goes to the National Counterintelligence 
Executive, and they incorporate much of our annual report in 
their annual report to Congress on espionage.
    Mr. Conaway. But in terms of your dealing with the 
companies--and I will get the phraseology wrong. In terms of 
the cleared, or whatever you call it, you have got an 
individual who has a security clearance appropriate for the 
level of classified information that they have----
    Ms. Watson. Yes.
    Mr. Conaway [continuing]. And that is our basic last line 
of defense, is that person watching how the program works 
within the company, making sure that new employees don't just 
come tricky-trotting in and get access to it, to the 
information. That is the person that you work the most with?
    Ms. Watson. The facility security officer, yes, sir.
    Mr. Conaway. Okay. How good are they?
    Ms. Watson. They are very good. They are trained. They are 
well compensated in industry. They have robust programs. We 
have a robust relationship with them.
    Most of the bigger companies have annual conferences with 
all their facilities security officers. We are invited to 
participate in them. We have ample opportunity to do so.
    Mr. Conaway. We had a suggested violation from a hedge 
fund, sub-owner in a hedge fund that we talked about this 
morning. Any instances where one of the facility security 
officers has said, you know, a hedge fund bought 10 percent of 
the company and some minion from the hedge fund came tricky-
trotting in here one day and asked to see classified 
information?
    You better say no.
    Ms. Watson. The general comment--I wouldn't know that it 
would be from a hedge fund, but certainly we have seen 
instances where the foreign ownership interest is represented 
with visitors and they do try to seek access. That is one of 
the guards that are in place in the company.
    Mr. Conaway. Okay. But the security--facility security 
officer would know that that is a risk that he or she should be 
on guard for.
    Ms. Watson. Absolutely.
    Mr. Conaway. Have we had instances where the new owners 
attempted to bully that officer into doing something he or she 
knows that is not right? Where that new owner has feared or 
tried to replace someone in a position that was not letting 
them get access?
    Ms. Watson. I cannot today speak to a specific instance 
that comes to mind. But in a situation like that the government 
security committee, the outside directors, if you will, are in 
a position to monitor that type of activity as well.
    Mr. Conaway. Protect them from undue influence.
    Ms. Watson. Yes.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back. Looking 
forward to getting this new report.
    The Chairman [presiding]. The gentlelady from California, 
Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    I wonder if you can clarify for me the role of the National 
Security Council (NSC). Mr. Thornberry mentioned the number of 
agencies that are involved. I am trying to get a handle on 
whether that is policy alone and if in fact you believe that 
perhaps there should even be a greater role. Could you describe 
that for me? Is that Mr. Torres?
    Mr. Torres. The role in the National Security Council, as 
it is with most security policy, is that from an oversight 
perspective. So most of the policy is not written there unless 
there is some reason for that level to decide that things are 
not working the way they should and take affirmative action. So 
it is an oversight role, but most of the policy is developed at 
a lower level with the national security program, with us as 
the lead, the executive agency with the Information Security 
Oversight Office (ISOO). Of course, that would be coordinated 
up through the National Security Council to make sure that they 
are in agreement with what the policy will be.
    Mrs. Davis of California. There have been a number of 
comments made basically that the agency was broken across the 
board, and you said that they might be dealing at the lower 
level with policy, but it should be going up the board if 
anything is going poorly. Were they playing a role?
    Mr. Torres. I can't comment as to whether they were 
involved previously, but I can tell you that at this point 
there really is not a need for their involvement. Because, as 
we stated previously, Defense Security Service now, in our 
opinion, has leadership that is needed to get this right. The 
working relationship between Defense Security Service, the 
Security Directorate, counterintelligence security, the GAO, I 
think is going very, very well.
    I don't think that there is any need to push anything 
further, because we really need to, as the folks with boots on 
the ground at Security Defense Service, need tell us what is 
really needed, and they are actually doing that.
    Mrs. Davis of California. Can I ask you, Ms. Watson, would 
it be helpful to have them feel like a stronger partner in this 
at all? Or basically you don't need that kind of oversight or 
coordination?
    Ms. Watson. I think there is a partnership here, and there 
is a role for everyone to play. The NSC is involved at a very 
top level.
    More importantly is the role of the ISOO in developing 
policy here. The ISOO, Information Security Oversight Office, 
from National Archives Records Administration plays a role 
here, as does a group called the NISPAC. It is another acronym. 
That is the industry group that participates as well in the 
oversight and policymaking element here.
    That group, the NISPAC, has a meeting semiannually. It is 
sponsored by ISOO. It has participation from all 23 government 
agencies that participate in the National Industrial Security 
Program and from DSS as well.
    Mrs. Davis of California. But the final accountability, and 
I think you covered this earlier, but the final accountability 
is where?
    Ms. Watson. The accountability in terms of policy?
    Mrs. Davis of California. Overall, yes.
    Mr. Sullivan. Ma'am, according to the executive order that 
established the National Industrial Security Program, the NSC 
has overall responsibility for policy. The Information Security 
Oversight Office implemented the program on behalf of the NSC 
and establishes the committee that Kathy mentioned, which is an 
entity established to address major policy issues, the 
coordination of the information that goes into the operating 
manual. So I think the answer to your question by the executive 
order is the NSC for policy matters.
    Mrs. Davis of California. And to the GAO, in your report 
did you locate that as the center of accountability or 
responsibility?
    Ms. Calvaresi Barr. We really just focused on DSS and 
national industrial security and what was happening on the 
ground to even first identify that a risk occurred and then the 
timing of putting protective measures. So we didn't really do 
the review looking at is the right accountability change. We 
just wanted to know whether they were doing their job as their 
mission called for in the first place, and our recommendations 
were directed in line with that.
    Mrs. Davis of California. Thank you. I know that you 
mentioned earlier the importance of the accountability piece. I 
just wanted to be sure I understood that.
    Ms. Calvaresi Barr. It is important. It is important in any 
program, particularly programs that are protecting critical 
technologies.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    The gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    A couple of different questions. The first is, my 
understanding is that there were 16 points that you made 
recommendations on. Two have been fully implemented, which 
suggests that there are 14 still being worked on. What is the 
status of the 14 other points?
    Ms. Watson. I can't answer that one by one. I will tell you 
we are a work in progress. We have taken all of the 
recommendations of GAO to heart, and we are addressing all of 
them in our implementation plan. It will take time.
    I have got a very small cadre of folks who do this work 
right now, and they need training. We are getting them the 
training. We are trying to get people in the door at the same 
time and make our oversight program much more robust.
    Mr. Akin. So are you actually plussing up the number of 
employees, so you are actively building an organization at this 
time?
    Ms. Watson. We are. When I arrived at DSS not only were we 
understaffed but we had 80 vacancies and there was a hiring 
freeze in place due to lack of resources. The hiring freeze has 
been lifted, so we are trying to recover from the 80 vacancies 
we already had, as well as hire an additional 145 new 
employees. It takes time. They all need clearances.
    Mr. Akin. When each of us was first elected to Congress, we 
came down here and they told us you have got a week or two to 
hire an entire office. In the business world, somebody leaves 
and you replace them with somebody. But when you are going to 
try to create an organization overnight, I understand what you 
are saying.
    Ms. Watson. We don't do all of our hiring. We have to work 
through the Department. We are dependent on other offices in 
the Department for our hiring actions.
    Mr. Akin. So you can't hire the people you want to run your 
organization?
    Ms. Watson. There are challenges in the hiring process.
    Mr. Akin. Sounds like you have got the other arm tied 
behind your back, too.
    I guess the question I have heard in terms of intelligence, 
that we have a gap where there is pure research, where the pure 
research then starts to get reported, that the Chinese can come 
and basically harvest anything they want, and there is some 
sort of a time period before there is a patent or something 
else that begins to protect it. Is there some kind of gap from 
the time of pure research discovery in a lab somewhere along 
the line where people can just come in and basically help 
themselves to our information?
    Mr. Sullivan. Sir, I am not a scientist, by any means, but 
I do know there is a document, National Security Defense 
Directive (NSDD) 189, that establishes the definition and 
parameters of basically research, essentially, in that it 
states basic research is generally not classified, at least 
within the Department, until you move down the spectrum of 
these different categories of research and get to something 
called fundamental research. Then you start getting into the 
classified area.
    So in that arena of basic research there is all kinds of 
exchanges of information, publishing of research, interaction 
with people around the world to encourage scientists to, in 
fact, produce better products.
    Mr. Akin. My question is, do we have a gap somewhere in 
there where people can pick off a lot of our research, where we 
should be classifying things or protecting information?
    Mr. Sullivan. I would have to defer to the people who own 
the technologies and are sponsoring the research. It would seem 
that there is an awful great potential for our adversaries to 
focus in the area of basic research to get information. But as 
to what we are losing or what there is to lose, that would be 
beyond our area of expertise.
    Mr. Akin. Who is in charge of that and who should know the 
answer to that question?
    Mr. Sullivan. I would refer--at least at the Office of 
Secretary of Defense, it would be the Office of the Under 
Secretary of Defense for Acquisition Technology and Logistics, 
AT&L.
    Mr. Akin. They should know that. Doesn't sound like there 
is any one point person that is in charge of protecting our 
information security in terms of--is that true? That is kind of 
what I am sensing.
    Ms. Calvaresi Barr. Let me just comment that we had 
mentioned a number of programs and policies that are designed 
to protect not only the systems, the components, the know-how, 
and the information. And I think on some of the basic research 
areas that you talked about, particularly with regards to 
export controls, the export control system is supposed to 
recognize, when we do have sensitive information, licenses are 
required for that. So that would be the role of State 
Department, looking over those things that are sensitive and 
have military application, and then Commerce Department, in 
terms of its licensing for dual use. We found major 
vulnerabilities in both of those programs.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    We are going to try to finish the hearing here shortly, 
because we have a series of four votes.
    Mr. Taylor--and if there are other comments, I am sure we 
can get them in. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank the panel for being here.
    And I apologize for being late. There were some things 
going on at the White House this morning.
    The Hughes-Loral deal strikes me as probably the poster 
child of ``greed gone wild'' in this town. I distinctly 
remember a member of the California delegation walking the 
floor, seeking people's signatures, saying it would be okay for 
the Loral Company to take some satellites over to China because 
there were huge profits to be made by sending satellites into 
space. And I remember not signing it, saying, ``That just gives 
me heartburn. I can see all sorts of bad things coming from 
this, even with my lack of technical knowledge. I just don't 
think that is a good idea.'' Well, it was amazing that 
apparently your office signed off on the deal.
    And I distinctly remember one employee sending a, what, 60-
something-page fax out in the clear, explaining to the Chinese, 
in effect, kicker technology for launching multiple satellites. 
What has happened since then to keep that from happening again?
    And do things like the European Aeronautic Defense and 
Space Company (EADS) successful bid on the tanker create more 
opportunities for mischief like that?
    And I will just give you an example. Let's say, as an 
unintended consequence of refuelling an F-22, we discover that 
something on the tanker is jamming the fuel pumps on the F-22, 
some sort of a signal. So word gets back to the parent company, 
when you are fueling an F-22, you can't broadcast in this 
frequency because you shut off his fuel pumps, because so much 
of that is done by electronics now. How do we keep EADS or 
someone like EADS from not going to a potential enemy of the 
United States and saying, you know, ``For X number of dollars, 
I will expose you to a vulnerability. Of course, then I am 
going to turn around to the United States Air Force and sell 
them a fix''?
    To what extent do you get involved in things like that? 
Because the Hughes-Loral deal happened. It did. Regrettably, it 
happened. So what steps are being taken so that doesn't happen 
again and that the scenario that I just outlined doesn't happen 
as well?
    Ms. Calvaresi Barr. I would just comment that it calls to 
the heart of these programs, such as industrial security and 
others, export controls and foreign military sales, all of that 
working as effectively as it can.
    And I think, just with regard to the protections that need 
to be in place, you need to know what alliances you are 
building, you need to know what companies you are partnering 
with.
    And I would even say, in the case of, as you said, the EADS 
deal, just because we would go with the U.S. company, it 
wouldn't necessarily preclude us from foreign ownership or 
influence, because, as we know, many of these large companies 
are going to have affiliations. So all the more reason for 
programs like Industrial Security and others to be effective.
    Mr. Taylor. Walk me and the average American through why 
that does not somehow become the proprietary knowledge of an 
EADS or any other firm, that broadcasting in a certain 
frequency is going to shut down the fuel pumps.
    I am just giving an analogy, because we have discovered a 
number of unintended consequences with our jammers in Iraq. And 
that is what leads me to say this, and I don't need to go any 
further than that.
    So let us just say a unintended consequence is to shut down 
the fuel pumps on an F-22 if you broadcast at a certain 
frequency; it suddenly becomes the information of EADS--or, 
heck, that is their company. They are an international 
aerospace firm in the business of selling information and 
technology.
    So where do you step in and prevent that from happening?
    Ms. Calvaresi Barr. There are programs in place in which we 
have agreements with other host governments that trickle down 
to--flow down to the contractors in the company that is 
supposed to say that we are supposed to protect certain of our 
classified information by the same standards as the U.S.
    We haven't done any recent work looking at how well those 
programs are working, how current they are.
    Mr. Taylor. If I may ask, why not? Because that strikes me 
as a very real vulnerability.
    Ms. Calvaresi Barr. Well, GAO usually does work on the 
behalf of Congress, and we haven't had a request specifically 
aimed looking at some of those agreements for quite some time.
    Mr. Taylor. Well, could I ask Dr. Schneider then?
    And, again, let's use the very real analogy of the jammers 
in Iraq and the unintended consequences that they have. I don't 
need to go into further detail. But let's just say that jammer 
happened to have been made by a foreign firm. What is to keep 
them from turning around to the Iraqis or the Iranians or any 
number of potential foes and saying, ``Oh, by the way, if you 
can broadcast a signal in this frequency, you can keep the 
Americans from talking to each other.''
    Dr. Schneider. In general, if there is classified 
information to that effect, that would only be in the hands of 
a U.S. citizen. If the U.S. citizen transferred it to someone 
who is not cleared and didn't have a need to know, that would 
be a violation of law, and they would be vulnerable to 
prosecution, whether or not there was a commercial relationship 
or not.
    And I think the question that you had raised earlier about 
the effectiveness of circumstances where we do share classified 
information with allied countries is something that is 
undoubtedly worth knowing about and staying on top of it.
    But my impression is that the rules on the protection of 
classified information bear on all of the holders who are U.S. 
citizens, and they have obligations which anyone who holds a 
security clearance knows, that they are not allowed to transfer 
classified information to anyone who does not have a security 
clearance and a need to know that information.
    The Chairman. I think the gentleman has an excellent line 
of inquiry, but we have a vote.
    Mr. Saxton. May I just ask a couple of questions for the 
record?
    The Chairman. Real quick.
    Mr. Saxton. We are flat out of time, as the Chairman said. 
I have two questions for Ms. Watson and Ms. Calvaresi Barr. 
Would you be able to respond in writing? Because we are going 
to have to go.
    The first question is, recognizing that the information we 
have indicates that you have 647 FOCI cases, I am not clear on 
precisely what an FOCI case is, and if you could each clarify 
that for us.
    And the second question is, because of the nature of the 
reporting requirements, which I have characterized as self-
reporting--that may or may not be a good characterization--how 
much are we missing because of the current reporting process? 
And do we need to make modifications in the reporting process 
in order to help us get a better picture of what it is that we 
are after in the reporting process?
    If you could get that back to us in short order, we would 
really appreciate it.
    Thank you.
    The Chairman. With that, we thank the gentleman.
    And I certainly appreciate your being with us today. It has 
just been excellent.
    And we are adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 16, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 16, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5132.001
    
    [GRAPHIC] [TIFF OMITTED] T5132.002
    
    [GRAPHIC] [TIFF OMITTED] T5132.003
    
    [GRAPHIC] [TIFF OMITTED] T5132.004
    
    [GRAPHIC] [TIFF OMITTED] T5132.005
    
    [GRAPHIC] [TIFF OMITTED] T5132.006
    
    [GRAPHIC] [TIFF OMITTED] T5132.007
    
    [GRAPHIC] [TIFF OMITTED] T5132.008
    
    [GRAPHIC] [TIFF OMITTED] T5132.009
    
    [GRAPHIC] [TIFF OMITTED] T5132.010
    
    [GRAPHIC] [TIFF OMITTED] T5132.011
    
    [GRAPHIC] [TIFF OMITTED] T5132.012
    
    [GRAPHIC] [TIFF OMITTED] T5132.013
    
    [GRAPHIC] [TIFF OMITTED] T5132.014
    
    [GRAPHIC] [TIFF OMITTED] T5132.015
    
    [GRAPHIC] [TIFF OMITTED] T5132.016
    
    [GRAPHIC] [TIFF OMITTED] T5132.017
    
    [GRAPHIC] [TIFF OMITTED] T5132.018
    
    [GRAPHIC] [TIFF OMITTED] T5132.019
    
    [GRAPHIC] [TIFF OMITTED] T5132.020
    
    [GRAPHIC] [TIFF OMITTED] T5132.021
    
    [GRAPHIC] [TIFF OMITTED] T5132.022
    
    [GRAPHIC] [TIFF OMITTED] T5132.023
    
    [GRAPHIC] [TIFF OMITTED] T5132.024
    
    [GRAPHIC] [TIFF OMITTED] T5132.025
    
    [GRAPHIC] [TIFF OMITTED] T5132.026
    
    [GRAPHIC] [TIFF OMITTED] T5132.027
    
    [GRAPHIC] [TIFF OMITTED] T5132.028
    
    [GRAPHIC] [TIFF OMITTED] T5132.029
    
    [GRAPHIC] [TIFF OMITTED] T5132.030
    
    [GRAPHIC] [TIFF OMITTED] T5132.031
    
    [GRAPHIC] [TIFF OMITTED] T5132.032
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 16, 2008

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    Ms. Watson. The National Industrial Security Program (NISP) 
(established by Executive Order 12829, January 6, 1993) authorizes 
firms to receive classified contracts, and authorizes security 
clearances for their personnel under specific conditions. The NISP 
Operating Manual (NISPOM), DoD 5220.22-M, defines those conditions. The 
first condition is that the ``company must need access to the 
classified information in connection with a legitimate U.S. Government 
or foreign government requirement'' (NISPOM para. 2-102.a.). This 
threshold condition is met when a Federal government contracting 
activity or an already cleared company, usually acting as a prime 
contractor, sponsors a company for a facility clearance (FCL). The 
NISPOM states that ``a contractor or prospective contractor cannot 
apply for its own FCL.'' (NISPOM para 2-102)
    When a company is sponsored for an FCL, the Defense Security 
Service (DSS) inspects and evaluates the company's security 
qualifications. Key management personnel would also have to be eligible 
for a personnel security clearance in order for the company to be 
granted a FCL. Only a company that has a FCL or is in process for 
receiving a FCL may submit requests for personnel security clearances.
    The lack of a FCL does not preclude a company from bidding on 
contract opportunities that may involve classified work or companies 
without a FCL being awarded classified contracts, subject to their 
being eligible for a FCL when the classified work on the contract is to 
begin. In addition, DSS will process a firm for a facility security 
clearance if a contracting activity requires the firm to access 
classified information in order to prepare a contract bid. [See page 
23.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. BOYDA
    Ms. Watson. Airbus Americas is currently involved in commercial 
sales (aircraft design and construction, parts, tools, engineering 
services, etc.) and does not have any U.S. Defense contracts at this 
time. As of August 2008, the Defense Security Service did not have a 
request for a facility clearance for Airbus Americas. Airbus Americas 
is a European Aeronautics Defense and Space (EADS) company. EADS has 
five facilities in the United States; four with facility clearances and 
one in process for a facility clearance.
    The Boeing Company has 25 cleared divisions and 15 cleared 
subsidiaries. The Boeing Company in Wichita, Kansas is cleared to the 
Top Secret level.
    Further information on details of any contract awards should be 
directed to the appropriate Government Contracting Activity. The 
Defense Security Service is not involved in the contract award process. 
Further, DSS only has oversight of companies cleared under the National 
Industrial Security Program that are performing on government contracts 
requiring access to classified information. DSS has no oversight 
responsibility of companies performing on government contracts that do 
not require access to classified information. [See page 26.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 16, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SAXTON

    Mr. Saxton. In 2007 DSS reported 647 FOCI cases. What constitutes a 
FOCI case? Of these 647 cases, were they all a result of self-
reporting? How much are you missing because the system relies upon self 
reporting or holes in the reporting requirements?
    Mr. Sullivan and Ms. Watson. According to the NISPOM, a U.S. 
company is considered to be under Foreign Ownership, Control, or 
Influence (FOCI) ``whenever a foreign interest has the power, direct or 
indirect, whether or not exercised, and whether or not exercisable 
through the ownership of the U.S. company's securities, by contractual 
arrangements or other means, to direct or decide matters affecting the 
management or operations of that company in a manner which may result 
in unauthorized access to classified information or may adversely 
affect the performance of classified contracts.'' A company that is 
under FOCI is not eligible for access to classified information unless 
the FOCI can be mitigated. A FOCI case is an action, conducted at HQ or 
in the Field, analyzing affirmative response(s) on the SF 328, 
``Certificate Pertaining to Foreign Interests''. Affirmative responses 
on the SF 328 indicate potential FOCI.
    DSS primarily relies upon information provided by the company to 
make a determination of the company's eligibility for access to 
classified information. In this regard, DSS is in a position similar to 
many other government agencies that rely upon company self-reporting, 
such as the SEC. When DSS initially processes a firm for a facility 
security clearance, DSS reviews and attempts to validate FOCI 
information provided by the firm. DSS inspects cleared companies, and 
requires them to correct, supplement and update information which was 
not accurate when submitted or is out of date. Should DSS determine 
that the company has failed to provide required and accurate FOCI 
information, DSS can invalidate its facility security clearance, which 
precludes the firm from being awarded new classified contracts, or, if 
warranted, revoke its facility security clearance. Historically, 
situations where the company failed to report accurate and complete 
information have been rare, however DSS has not measured the extent to 
which information reported is incomplete or inaccurate.
    Mr. Saxton. Do companies with Government Security Committees do a 
better job of self-reporting? How does the Government Security 
Committee improve a company's compliance with NISPOM?
    Mr. Sullivan. Government Security Committees (GSCs) are a part of 
the company governance structure required by Voting Trusts, Proxy 
Agreements, Special Security Agreements, and Security Control 
Agreements. These are mitigation measures put in place to protect 
classified information when there are significant Foreign Ownership, 
Control, or Influence (FOCI) concerns associated with the company. 
Companies with these agreements have additional reporting requirements 
because of the FOCI concerns at the company. They represent 
approximately two percent of the cleared contractor population of 
approximately 12,000 cleared facilities.
    DSS has not noted that self-reporting or NISPOM compliance by 
companies with a GSC is any different than by companies that do not 
have a GSC.
    Mr. Saxton. In 2007 DSS reported 647 FOCI cases. What constitutes a 
FOCI case? Of these 647 cases, were they all a result of self-
reporting? How much are you missing because the system relies upon 
self-reporting or holes in the reporting requirements?
    Dr. Schneider. The Defense Science Board has not addressed the 
specific question asked and therefore I can not respond to your 
inquiry.
    Mr. Saxton. Do companies with Government Security Committees do a 
better job of self-reporting? How does the Government Security 
Committee improve a company's compliance with NISPOM?
    Dr. Schneider. The Defense Science Board has not addressed the 
specific question asked and therefore I can not respond to your 
inquiry.
    Mr. Saxton. In 2007, DSS reported 647 FOCI cases. (a) What 
constitutes a FOCI case? (b) Of these 647 cases, were they all a result 
of self-reporting? (c) How much are you missing because the system 
relies upon self-reporting or holes in the reporting requirements?
    Ms. Calvaresi Barr.

        <bullet>  DSS, industrial security representatives (ISR) are 
        responsible for ensuring that contractors properly identify all 
        relevant foreign business transactions. The ISR is required to 
        collect, analyze, and verify the pertinent information about 
        these transactions to determine whether foreign ownership, 
        control, or influence (FOCI) exists. If contractors' indicate 
        that foreign transactions meet certain DSS criteria \1\ or 
        exceed thresholds, such as the percentage of company stocked 
        owned by foreign persons, the ISR forwards the case to DSS 
        headquarters. DSS headquarters works with the contractor to 
        determine what, if any, protective measures are needed to 
        reduce the risk of foreign interests gaining unauthorized 
        access to U.S. classified information. Then, DSS field staff 
        monitor contractor compliance with these measures.
---------------------------------------------------------------------------
    \1\ The following factors are considered in the aggregate in 
determining whether a company is under FOCI: a. Record of economic and 
government espionage against U.S. targets, b. Record of enforcement 
and/or engagement in unauthorized technology transfer, c. Type and 
sensitivity of information requiring protection, d. The source, nature 
and extent of FOCI, e. Record of compliance with pertinent U.S. laws, 
regulations and contracts, and f. Nature of bilateral and multilateral 
security and information exchange agreements.

        <bullet>  Identification of FOCI is generally the result of 
        self reporting on the part of the contractor. However, we can 
        not say whether all 647 cases resulted only from self 
---------------------------------------------------------------------------
        reporting.

        <bullet>  While we are not able to say how much is being 
        missed, our work found that ISR's lacked the training and 
        knowledge needed to verify complex FOCI cases. Further, we 
        found that DSS headquarters did not know the universe of all 
        contractors operating under all types of protective measures 
        used when FOCI is present.

    Mr. Saxton. (a) Do companies with Government Security Committees 
(GSC) do a better job of self-reporting? (b) How does the Government 
Security Committee improve a company's compliance with NISPOM?
    Ms. Calvaresi Barr.

        <bullet>  A GSC is established after FOCI has been identified 
        to help ensure that the company under FOCI maintains policies 
        and procedures to safeguard classified information and 
        sensitive but unclassified information in the possession of 
        the. The GSC is also to help ensure that the company complies 
        with U.S. export control laws and regulations and does not take 
        action deemed adverse to performance on classified contracts.

        <bullet>  By following through and effectively carrying out its 
        responsibilities under the NISPOM, the GSC increases the 
        likelihood that the company will comply with the NISPOM.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. In an increasingly globalized world and defense 
industry, do you consider investment in U.S. defense firms, and a 
strong, competitive U.S. defense industry, to be important to our 
national security? a. How do you assure that, when U.S. contracts are 
awarded to foreign companies, U.S. defense and national security data, 
technology, expertise, and capabilities are not outsourced to such a 
degree that we lose them in this country all together? b. Could policy 
disagreements between the U.S. and nations in which U.S.-contracted 
companies are based result in a situation where critical, outsourced 
U.S. defense technology is not delivered or not available? Is such a 
possibility taken into account when assessing the awarding of a U.S. 
defense contract to a foreign company? c. The United States' aerial 
refueling fleet is the foundation of every mission undertaken by our 
men and women in uniform and is vital to the readiness of our Armed 
Forces. If the KC-X tanker award is outsourced, won't the United States 
lose our vital edge in this critical technology and capability? d. What 
is being done to guarantee that the United States would have not only 
the data, but the intellectual and real capital and capability to 
produce tankers for the U.S. military in the event that something 
unforeseen happens that is outside of our control--politically, 
militarily, or otherwise--that will enable the U.S. government to 
ensure that it could domestically develop, build and support tankers?
    Mr. Sullivan and Ms. Watson. The Office of the Under Secretary of 
Defense defers to the Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics to respond to this question 
because the question is outside the oversight responsibilities of the 
Office of the Under Secretary of Defense for Intelligence.
    Mr. Loebsack. In an increasingly globalized world and defense 
industry, do you consider investment in U.S. defense firms, and a 
strong, competitive U.S. defense industry, to be important to our 
national security? a. How do you assure that, when U.S. contracts are 
awarded to foreign companies, U.S. defense and national security data, 
technology, expertise, and capabilities are not outsourced to such a 
degree that we lose them in this country all together? b. Could policy 
disagreements between the U.S. and nations in which U.S.-contracted 
companies are based result in a situation where critical, outsourced 
U.S. defense technology is not delivered or not available? Is such a 
possibility taken into account when assessing the awarding of a U.S. 
defense contract to a foreign company? c. The United States' aerial 
refueling fleet is the foundation of every mission undertaken by our 
men and women in uniform and is vital to the readiness of our Armed 
Forces. If the KC-X tanker award is outsourced, won't the United States 
lose our vital edge in this critical technology and capability? d. What 
is being done to guarantee that the United States would have not only 
the data, but the intellectual and real capital and capability to 
produce tankers for the U.S. military in the event that something 
unforeseen happens that is outside of our control--politically, 
militarily, or otherwise--that will enable the U.S. government to 
ensure that it could domestically develop, build and support tankers?
    Dr. Schneider. The Defense Science Board has not addressed the 
specific question asked and therefore I can not respond to your 
inquiry.
    Mr. Loebsack. In an increasingly globalized world and defense 
industry, do you consider investment in U.S. defense firms, and a 
strong, competitive U.S. defense industry, to be important to our 
national security?
    Ms. Calvaresi Barr. Defense trade not only helps support the U.S. 
industrial base but also provides the economic benefit of a positive 
trade balance. U.S. military strategy is premised on technological 
superiority on the battlefield. The Department of Defense spends 
billions of dollars each year for the development and production of 
high technology weaponry to maintain that superiority. Yet, the 
technologies that underpin U.S. military strength continue to be 
targets for theft, espionage, reverse engineering, and illegal export. 
At the same time, the programs the U.S. government has in place to 
protect critical technologies by weighing competing and sometimes 
conflicting national security, foreign policy, and economic interests 
have long been criticized by industry and allies for their inability to 
adapt to a changing world environment and their lack of efficiency.
    In addition, as mentioned, the economy has become increasingly 
globalized as countries open their markets and the pace of 
technological innovation has quickened worldwide. The myriad of laws, 
regulations, policies, and processes intended to identify and protect 
critical technologies so they can be transferred to foreign parties in 
a manner consistent with U.S. interests include the national industrial 
security program, those that regulate U.S. defense-related exports and 
the investigation of proposed foreign acquisitions of U.S. national 
security-related companies. Responsibility for administering or 
overseeing the different programs is divided among multiple federal 
agencies and several congressional committees. However, we have found 
that these programs are often ill-equipped to weigh competing U.S. 
national security and economic interests. As a result, to address the 
issues you raise we believe a strategic reexamination of the existing 
programs is needed to ensure the advancement of U.S. interests.

                                  <all>

</pre></body></html>
